<html>
<title> - VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                     VOCATIONAL REHABILITATION AND
                          EMPLOYMENT PROGRAMS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2009

                               __________

                           Serial No. 111-10

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
48-424                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, JR., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY MCNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

THOMAS S.P. PERRIELLO, Virginia      JOHN BOOZMAN, Arkansas, Ranking
JOHN H. ADLER, New Jersey            JERRY MORAN, Kansas
ANN KIRKPATRICK, Arizona             GUS M. BILIRAKIS, Florida
HARRY TEAGUE, New Mexico

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             April 2, 2009

                                                                   Page

Vocational Rehabilitation and Employment Programs................     1

                           OPENING STATEMENTS

Hon. Harry Teague................................................     1
Chairwoman Stephanie Herseth Sandlin, prepared statement of......    30
Hon. John Boozman, Ranking Republican Member.....................     2
    Prepared statement of Congressman Boozman....................    31

                               WITNESSES

U.S. Department of Labor, John M. McWilliam, Deputy Assistant 
  Secretary, Veterans' Employment and Training Service...........    17
    Prepared statement of Mr. McWilliam..........................    42
U.S. Department of Veterans Affairs, Ruth A. Fanning, Director, 
  Vocational Rehabilitation and Employment Service, Veterans 
  Benefits Administration........................................    18
    Prepared statement of Ms. Fanning............................    45

                                 ______

American Legion, Mark Walker, Assistant Director, Economic 
  Commission.....................................................     4
    Prepared statement of Mr. Walker.............................    31
Veterans of Foreign Wars of the United States, Justin Brown, 
  Legislative Associate, National Legislative Service............     5
    Prepared statement of Mr. Brown..............................    34
Wounded Warrior Project, Charles S. Ciccolella, Senior Fellow for 
  Economic Empowerment...........................................     7
    Prepared statement of Mr. Ciccolella.........................    38

                       SUBMISSIONS FOR THE RECORD

Commission on Rehabilitation Counselor Certification, Patricia 
  Nunez, Chairwoman, statement...................................    48

                   MATERIAL SUBMITTED FOR THE RECORD

Article:

    Wounded Marines: School Didn't Deliver, Navy Times, by Gidget 
      Fuentes, March 9, 2009.....................................    50

Post-Hearing Questions and Responses for the Record:

    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunities, Committee on Veterans' Affairs, to 
      Peter Gaytan, Executive Director, American Legion, letter 
      dated April 15, 2009, and response from Mark Walker, Deputy 
      Director, National Economic Commission, American Legion, 
      letter dated May 27, 2009..................................    52
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunities, Committee on Veterans' Affairs, to 
      Colonel (ret.) Michael R. Turner, Chief, Congressional 
      Affairs, Wounded Warrior Project, letter dated April 15, 
      2009, and WWP responses....................................    54
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunities, Committee on Veterans' Affairs, to 
      Bob Wallace, Executive Director, Veterans of Foreign Wars 
      of the United States, letter dated April 15, 2009, and 
      response from Justin Brown, Legislative Associate, National 
      Legislative Service, Veterans of Foreign Wars of the United 
      States, letter dated May 13, 2009..........................    57

                                     

    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunities, Committee on Veterans' Affairs, to 
      Hon. Hilda L. Solis, Secretary, U.S. Department of Labor, 
      letter dated April 15, 2009, and response from John 
      McWilliam, Deputy Assistant Secretary for Operations and 
      Management, Office of the Assistant Secretary for Veterans' 
      Employment and Training, U.S. Department of Labor, letter 
      dated July 17, 2009........................................    58
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunities, Committee on Veterans' Affairs, to 
      Ruth Fanning, Director, Office of Vocational Rehabilitation 
      and Employment, Veterans Benefits Administration, U.S. 
      Department of Veterans Affairs, letter dated April 15, 
      2009, and VA responses.....................................    60


           VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAMS

                              ----------                              


                        THURSDAY, APRIL 2, 2009

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:02 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.

    Present: Representatives Herseth Sandlin, Perriello, 
Teague, Boozman.

OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN AS PRESENTED BY 
                       HON. HARRY TEAGUE

    Mr. Teague [presiding]. Good afternoon. The Veterans' 
Affairs Subcommittee on Economic Opportunity oversight hearing 
on vocational rehabilitation and employment (VR&E) programs 
will come to order.
    I received word that Chairwoman Herseth Sandlin is en route 
and should be joining us shortly.
    I would like to call to attention the fact that the 
Commission on Rehabilitation Counselor Certification has asked 
to submit a written statement for the hearing record. If there 
is no objection, I ask for unanimous consent that this 
statement be entered for the record. Hearing no objection, so 
entered.
    [The prepared statement of Ms. Nunez appears on p. 48.]
    Mr. Teague. I ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks and that 
written statements be made part of the record. Hearing no 
objection, so ordered.
    Today's hearing will give the Subcommittee the opportunity 
to learn more about the U.S. Department of Veterans Affairs' 
(VA's) Vocational Rehabilitation and Employment Program and its 
relationship with the U.S. Department of Labor (DOL) in 
assisting our veterans obtain meaningful employment while 
healing from the wounds sustained while in military service.
    Some of our panelists might recall that this Subcommittee 
held 2 hearings on VR&E in the last Congress. These hearings 
afforded the Subcommittee the opportunity to hear from 
stakeholders on their concerns and recommendation to improve 
upon existing programs.
    It is very important that we continue to examine these 
concerns, especially at a time when our country's veterans are 
experiencing Post-traumatic stress disorder, Traumatic Brain 
Injury (TBI), amputation, and severe burns that would have been 
fatal in previous conflicts.
    As a result of previous hearings, Congress successfully 
passed Public Law 110-389, the ``Veterans' Benefits Improvement 
Act of 2008,'' which waives the 24-month limitation on 
independent living services for veterans who served after 
September the 11th, 2001, increasing the cap on number of 
veterans participating in the independent living from 2,500 to 
2,600 veterans, requires the Secretary of Veterans Affairs to 
conduct a 1 year study on measures to assist and encourage VR&E 
Program completion; and requires the Secretary of Veterans 
Affairs to conduct a 20-year longitudinal study on VR&E 
participants.
    I can assure our witnesses that we will continue to monitor 
the VA as it implements these changes and works on providing us 
the required reports. The men and women who serve our Nation 
honorably deserve and should receive the best our country can 
offer.
    While the changes made in the 110th Congress are a step in 
the right direction, we continue to hear from the veterans' 
community concern that future improvements are needed.
    At the suggestion of the Military Officers Association of 
America and the veterans community, Mr. Bob Filner recently 
introduced H.R. 1821, the ``Equity for Injured Veterans Act of 
2009.'' Mr. Filner's legislation seeks to assist VR&E 
participants by expanding VR&E participating eligibility for a 
period of 15 years, augmenting housing stipend and assistance 
to the same levels as Chapter 33 housing stipend recipients, 
authorizing the Secretary to pay subsistence allowance for a 
period of 6 months after program completion, authorizing the 
Secretary to provide reimbursements for child care services, 
and requiring the Secretary to modify its VR&E reporting 
requirements.
    I am pleased to hear that Secretary of Labor Hilda Solis 
and Secretary of Veterans Affairs Eric Shinseki reaffirmed 
their commitments to assisting our Nation's veterans during 
their respective confirmation hearings.
    I look forward to working with the Secretaries, Chairwoman 
Herseth Sandlin, Ranking Member Boozman, Members of the 
Committee, and stakeholders to evaluate legislative proposals 
that seek to equip our veterans with the tools they need to 
succeed after military service.
    I now recognize the distinguished Ranking Member, 
Congressman John Boozman, for any opening remarks he may have.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 30.]

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you, Mr. Teague.
    And I would like to extend a special welcome to the former 
Assistant Secretary of Labor for Veterans' Employment and 
Training Service (VETS), Mr. Ciccolella. I suspect it was a lot 
easier to have your testimony cleared today than it was with 
the Office of Management and Budget (OMB) in your past life.
    When I think of benefits to improve the lives of disabled 
veterans, I am very proud of the vocational rehabilitation and 
employment. VR&E is the most flexible and generous among the 
programs for disabled veterans administered by VA.
    I also suspect VR&E is the most effective disability 
rehabilitation program offered by the Federal Government and it 
should be.
    Having said that, we still face significant challenges to 
increase the number of disabled veterans who successfully 
complete their rehabilitation program.
    Whether it is their long-term education or intermediate job 
placement services, I believe veterans continue to drop out of 
the program for reasons within our control.
    For example, increasing the stipend to $1,200 per month as 
proposed by Ranking Member Buyer's H.R. 297, the ``Veterans 
Vocational Rehabilitation and Employment Subsistence Allowance 
Improvement Act of 2009,'' of which I am a co-sponsor, would be 
a significant improvement by reducing the number of veterans 
who drop out because of the need to work full time to support 
their families.
    Mr. Teague, if by some strange circumstances we might find 
some PAYGO resources, I believe increasing the stipend should 
be high on our list of uses for the money.
    I am also concerned that in our zeal to rehabilitate 
veterans and returning them to the workforce, the program 
occasionally fails to consider all aspects of a potential 
training program, including costs and availability of similar 
resources and opportunities at much lower cost.
    For example, recent press articles question the 
appropriateness of a program to train wounded Marines for 
careers in the entertainment industry. The article stated VA 
paid over $88,000 for each of the 19 Marines who completed the 
10-week course that had been offered originally as a free 
course. The VA paid over $64,000 for each of the second group 
of 8 wounded Marines who completed the course.
    [The press article Wounded Marines: School didn't deliver, 
Navy Times, by Gidget Fuentes, March 9, 2009, appears on page 
50.]
    Similar courses were available in the area for 80 percent 
less and I note that the institution in question had previously 
been denied approval for GI Bill benefits.
    VA has a well-developed process that uses the State 
Approving Agencies to approve courses for education benefits. 
While I understand that VR&E staff have the authority to 
approve education and training courses for their participants, 
it is entirely appropriate that they seek the assistance of the 
State Approving Agencies whenever veterans seek to use VR&E 
benefits to attend unusual courses like the one I just 
mentioned.
    I still do not understand how VA calculates the 
rehabilitation rate. To me, if you have about 100,000 
participants and 12,000 are rehabilitated in a year, the rate 
is 12 percent, not 75 percent.
    I also believe that 12 percent is not necessarily bad given 
that you are serving a group of disabled veterans whose needs 
are much more difficult to solve.
    Finally, I want to thank Director Fanning and her staff for 
their efforts to put disabled veterans back to work. I 
recognize that the case I just mentioned is very much an 
exception to their standard practices and I am willing to work 
with all the stakeholders to ensure that disabled veterans 
receive the best possible opportunity to pursue their working 
careers.
    Thank you, Mr. Teague. I yield back.
    [The prepared statement of Congressman Boozman appears on
p. 31.]
    Mr. Teague. Thank you, Mr. Boozman, for those remarks.
    I would like to welcome all of our witnesses testifying 
before this Subcommittee today. I would like to also remind all 
our witnesses that your complete written statements have been 
made part of the hearing record.
    Please limit your remarks so that we may have sufficient 
time to follow-up with questions once everyone has had the 
opportunity to provide their testimony.
    Joining us in the first panel is: Mr. Mark Walker, 
Assistant Director of the National Economic Commission for the 
American Legion; Mr. Justin Brown, Legislative Associate of 
National Legislative Service for the Veterans of Foreign Wars 
of the United States (VFW); and the Honorable Charles 
Ciccolella, who is the former Assistant Secretary for the 
Department of Labor's Veterans' Employment and Training 
Service. Secretary Ciccolella now serves as Senior Fellow for 
Economic Empowerment for the Wounded Warrior Project (WWP). I 
thank all of you all for being here.
    Mr. Walker, welcome to the Subcommittee. You are recognized 
for 5 minutes.

    STATEMENTS OF MARK WALKER, ASSISTANT DIRECTOR, ECONOMIC 
    COMMISSION, AMERICAN LEGION; JUSTIN BROWN, LEGISLATIVE 
 ASSOCIATE, NATIONAL LEGISLATIVE SERVICE, VETERANS OF FOREIGN 
 WARS OF THE UNITED STATES; AND CHARLES S. CICCOLELLA, SENIOR 
    FELLOW FOR ECONOMIC EMPOWERMENT, WOUNDED WARRIOR PROJECT

                    STATEMENT OF MARK WALKER

    Mr. Walker. Mr. Teague, Ranking Member Boozman, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to submit the views of the American Legion 
regarding the Department of Veterans Affairs' vocational 
rehabilitation and employment programs.
    The mission of the VR&E Program is to help qualified 
service-disabled veterans achieve independence in daily living 
and to the maximum extent feasible obtain and maintain suitable 
employment. The American Legion fully supports these goals.
    The Vocational Rehabilitation Program has historically been 
marketed to veterans as an education program and not an 
employment program. Although the VR&E Program has focused more 
on the employment side, eligible veterans who are enrolled into 
the education and training programs receive a monthly 
allowance.
    Those veterans who use VR&E for assistance with immediate 
employment do not. This policy leaves out needed assistance for 
veterans looking for immediate employment, which could lead 
them into a different track and miss out on early entry into 
the civilian workforce.
    Another problem hindering the effectiveness of the VR&E 
programs is high workloads for the limited number of staff. 
This hinders the staff's ability to effectively assist 
individual veterans with identifying employment opportunities. 
Without sufficient staffing, the overall success of VR&E 
programs becomes extremely difficult, especially due to the 
numbers of injured veterans returning from Iraq and 
Afghanistan.
    It is our experience that the interagency collaboration and 
communication between the VR&E Program and the Department of 
Labor Veterans' Employment and Training Service has been 
lacking in the past. However, this relationship is steadily 
improving.
    A majority of Veterans' Employment and Training Service 
representatives contacted spoke of an improved level of 
communication between the 2 agencies along with other positive 
developments such as improvement in local data sharing and 
combined training at the local and national levels.
    In addition, national representatives from the 2 agencies 
are currently reporting a close and cooperative relationship 
and an expectation that this relationship will continue to 
improve.
    The American Legion recommends Congress amend the VR&E 
Program to allow participants to qualify for Chapter 33 
benefits while receiving case management and other services 
that lead to gainful employment.
    The American Legion believes amending this program is the 
fair and equitable way of honoring our most vulnerable veterans 
who are seeking financial independence after being injured 
while serving our country.
    No VA mission is more important at this time in our 
history, especially now when our country is at war and in 
financial crisis, than enabling our injured soldiers, sailors, 
airmen, and other veterans with disabilities to have a seamless 
transition from military service to successful rehabilitation 
and on to rewarding employment.
    The success of the VR&E Program will significantly be 
measured by these veterans' ability to obtain suitable 
employment and achieve a high quality of life. To meet 
America's obligation to these injured veterans, VA leadership 
must continue to focus on improving the case management, 
vocational counseling, and, most importantly, job placement.
    The American Legion strongly supports the VR&E programs and 
it is committed to working with VA and other Federal agencies 
to ensure that America's wounded veterans are provided with the 
highest level of service and employment assistance.
    Again, thank you for the opportunity to submit the opinion 
of the American Legion on this issue.
    [The prepared statement of Mr. Walker appears on p. 31.]
    Mr. Teague. Mr. Walker, thank you.
    Mr. Brown, you are now recognized for 5 minutes.

                   STATEMENT OF JUSTIN BROWN

    Mr. Brown. Thank you, Mr. Teague.
    Mr. Teague, Ranking Member Boozman, Members of the 
Subcommittee, on behalf of the Veterans of Foreign Wars of the 
United States and our auxiliaries, I would like to thank this 
Committee for the opportunity to testify. The issues under 
consideration today are of great importance to our Members and 
the entire veteran population.
    During this economic recession, the number of unemployed 
veterans has increased to nearly one million as of February 
2009. That is an increase of nearly 160,000 veterans since we 
testified before this Subcommittee 30 days ago.
    There are twice as many unemployed veterans as there were 1 
year ago and there are more unemployed Iraq and Afghanistan 
veterans than there are men and women currently serving in 
Iraq.
    Of these one million veterans, we know that two-thirds of 
them or 66,000 are ineligible for any educational programs that 
are available, Chapter 30, Chapter 31, and Chapter 33.
    What we do not know is how many of these veterans are 
unemployed due to an injury they received in service to our 
Nation. Nonetheless, we do know that there are veterans who 
were injured and who are not receiving any rehabilitation 
because of a 12-year delimiting date tied to the VR&E Program.
    There is no delimiting date on a service-connected injury 
and at no point does that injury stop being related to a 
veteran's service to our Nation. Veteran service-related 
injuries tend to progressively worsen over time and many 
injuries will not even fully disable a veteran until long after 
12 years.
    Veterans did not ask to become disabled and we, as a 
Nation, need to do more to help service-disabled veterans 
rehabilitate for the entirety of their employable lives.
    The VFW was asked by this Committee to develop 5 core 
issues to make VR&E a better rehabilitation tool for America's 
disabled veterans. We have done so and we believe that if these 
recommendations were adopted, the VR&E Program would have 
better long-term results for both veterans and our Government.
    Number one, the delimiting date for VR&E needs to be 
removed. Currently the delimiting date for VR&E is set to 12 
years after separation from the military or 12 years following 
the date a servicemember learns of their rating for a service-
connected disability. This fails to take into account the fact 
that many service-related injuries will not hinder the veteran 
to the point of needing help or rehabilitation until many years 
following such injury.
    Number two, VR&E's education stipend needs parity in 
comparison to the new GI Bill. The discrepancy in benefits 
between the new GI Bill and VR&E may have the latent 
consequence of incentivizing the new GI Bill even though a 
disabled veteran needs access to the additional rehabilitation 
benefits VR&E provides.
    For this reason, the VFW strongly urges Congress to create 
a VR&E educational housing stipend that is in line with the new 
GI Bill's housing allowance, which is E5 with dependents, basic 
allowance for housing determined by the zip code of the 
educational institution of interest. This would offer our 
disabled veterans the best all around program and would return 
the VR&E Program to offering the best overall services for the 
rehabilitation of disabled veterans.
    Number three, for many disabled veterans with dependents, 
VR&E education tracks are insufficient.
    Number four, VR&E performance metrics need to be revised to 
emphasize long-term success.
    Number five, VR&E needs to reduce time from enrollment to 
start of services.
    In conclusion, the Veterans of Foreign Wars believes that 
VR&E is one of the best tools disabled veterans have. We hope 
to see it upgraded to face the unique challenges of today's 
veterans during these tough economic times.
    The cost to our disabled veterans far exceeds the 
recompense our Nation provides them as these injuries 
drastically reduce their quality of life. However, we must not 
forget disability does not just affect the solider or the 
veteran. Families and children pay a price as well and it is 
our responsibility to offer these veterans a robust, fair 
rehabilitation program for their employable future.
    Mr. Teague, Ranking Member Boozman, this concludes my 
testimony and I will be pleased to respond to any questions you 
or the Members of this Subcommittee may have. Thank you.
    [The prepared statement of Mr. Brown appears on p. 34.]
    Mr. Teague. Mr. Brown, thank you.
    Secretary Ciccolella, you are now recognized for 5 minutes.

            STATEMENT OF HON. CHARLES S. CICCOLELLA

    Mr. Ciccolella. Thank you, Mr. Teague. And thank you, 
Congressman Boozman, Ranking Member Boozman, for your kind 
introduction.
    Sir, I would like to point out that we actually have 2 
Assistant Secretaries in Wounded Warrior Project and the 
Honorable Christine Hill, former Assistant Secretary for 
Congressional Affairs, is also in the hearing. And I do not 
want you to think we are getting to be a top-heavy organization 
or anything.
    Well, thank you for inviting Wounded Warrior Project today 
to address the important issue of vocational rehabilitation and 
employment.
    I would like to begin by saying that Wounded Warrior 
Project has staff through the country assisting wounded 
warriors on a day-to-day basis. This direct contact gives us a 
unique perspective on the needs that they have and the 
obstacles that they face as they reintegrate back into their 
homes and back into their educational opportunities and 
communities and certainly within the civilian workforce.
    Our goal is to ensure that this the most successful, well-
adjusted generation of veterans in our Nation's history. We 
take a no-nonsense approach to the programs and services that 
we offer and we build programs that work. We measure outcomes 
and we continually refine and adjust them to ensure the success 
of our wounded warriors.
    Our policy recommendations are guided by daily feedback 
from our field staff who work directly with our wounded 
warriors, but we also recognize they must be balanced by 
independent, objective research.
    Therefore, today we offer broad thoughts based on our 
observed issues by our field service teams about how VR&E can 
be improved. We will be able to make more specific suggestions 
at a later date once we have completed our independent analysis 
of the program.
    Let me begin by saying that Wounded Warrior Project 
believes the VR&E Program should be one of VA's crown jewels. 
VR&E is critically needed and it is extremely valuable for the 
disabled veterans seeking to adapt to what we call the new 
normal of their daily living.
    Clearly the VR&E Program has made significant progress 
since the 2004 VA Task Force that has been noted by the other 
witnesses for the recommendations for improving the program.
    But Wounded Warrior Project believes more improvements are 
needed. My written testimony outlines these improvements and 
what we consider to be the shortcomings of the program. And I 
will mention a few of those now.
    First, our field teams report subsistence levels under the 
program are inadequate and may actually discourage individuals 
from enrolling and may also contribute to incompletion rates. 
In many cases, subsistence is only paid in the education track. 
Those in the employment tracks only receive payments when they 
are in actual training.
    Also, without an increase in subsistence, this will become 
more problematic when the new GI Bill Program begins in August.
    Next, far too many servicemembers are leaving active-duty 
military and simply not getting the word about the benefits of 
the VR&E Program. Enrollment may also be discouraged by an 
application process which is burdensome because it takes an 
average of 45 days to determine eligibility, but 90 percent of 
those who apply are accepted into the program.
    Finally, we have received reports that some veterans with 
low to moderate disabilities of TBI and Post-traumatic stress 
disorder are not being allowed into the program. We do not know 
if these are widespread trends or isolated instances. What we 
do know is that our field service teams are concerned and 
consequently we intend to examine the entire VR&E Program.
    Now, I want to be clear that WWP does not attribute these 
perceived weaknesses to be any failure on behalf of the 
dedicated men and women who administer the program and 
certainly not to the VR&E's Central Office which has provided 
excellent leadership for the program since Ruth Fanning took 
over but rather what appears to be a relatively low priority 
that VA places on VR&E.
    In fact, we believe VR&E's fundamental framework is sound 
and it provides the basis for significantly improving the 
program.
    At this time, I will make 4 recommendations.
    First, subsistence payments must be increased. Current 
subsistence rates are simply inadequate.
    Congressman Boozman, I know you are a sponsor of the 
Congressman Buyer bill, but we believe that more study is 
needed to determine what the proper rate should be. In our 
view, they should be greater than those benefits of the new GI 
Bill.
    VR&E participants should also be fully reimbursed for 
expenses like child care, community costs, and job hunting 
expenses.
    My written testimony also contains some other 
recommendations.
    Secondly, it should be mandated for every servicemember to 
receive a VR&E briefing prior to separation.
    Third, I think all of us agree that no wounded warrior 
should be denied enrollment in the VR&E Program because of the 
unique nature of their injuries. We have a high prevalence of 
TBI and Post-traumatic stress disorder within our new 
generation of wounded warriors and that further emphasizes the 
need for VR&E to tailor the program to accommodate the needs of 
these wounded warriors who have these diagnoses.
    Finally, WWP believes it may be time to expand the focus of 
the Independent Living Program to improve the quality of life 
of severely disabled veterans who choose to live at home, as 
well as helping them to become more employable.
    And we are looking at this because Wounded Warrior Project 
works every day with these wounded warriors who may never 
satisfy the future employability criteria of VR&E. And we think 
that this enhancement combined with comprehensive family 
caregiver program legislation could have a profound impact on 
those most in need.
    Mr. Teague, we will be studying these issues further in the 
months to come and we will be making more specific 
recommendations when we complete our study so that VR&E can 
truly be the crown jewel of VA for disabled veterans and so 
that no wounded warrior who should be in VR&E should ever be 
left behind.
    Thank you for hearing my testimony, and I would be pleased 
to respond to your questions.
    [The prepared statement of Hon. Ciccolella appears on p. 
38.]
    Mr. Teague. Yes. I do have a few questions, first for Mr. 
Brown.
    In your testimony, you stated that for many disabled 
veterans with dependents, VR&E education tracks are 
insufficient. Why is it insufficient and what can be done to 
improve on that program?
    Mr. Brown. Thank you for the question, Mr. Teague.
    You know, the Chapter 31 benefit as it is right now with 
dependents in comparison to the GI Bill alone, I mean, just the 
amount of money that a student using the new benefit in 
comparison to Chapter 31, there is quite a discrepancy there. 
But that is also not to include the fact that, you know, these 
individual veterans have families. If they are disabled, if 
they are only getting, you know, $700 a month, how are they 
also supposed to be, you know, paying for child care or is 
their spouse supposed to be picking up the other part of these 
hindrances to the veteran?
    You know, I think what is important and what we understand 
here is that the major difference between vocational 
rehabilitation and the GI Bill is that these guys are disabled 
veterans and many of them are using these benefits not at their 
own choice. You know, this is what they need to transition back 
into society. And for many of these guys, it was not their 
choice to leave the military.
    And, you know, especially in the realm of child care or 
spousal help, I mean, I think we can do a lot to really step it 
up there and help them, help these veterans out.
    Mr. Teague. Okay. Also, in your testimony, you state that 
any time a veteran becomes unemployed during his employable 
future, he should be counted as such. And how long do you 
propose for VR&E to follow a veteran?
    Mr. Brown. You know, I think that is a discussion that we 
really need to sit down and have and discuss what is, you know, 
the totality of, you know, how do we frame employable future.
    But the main idea is, you know, that we need to really 
start looking at some long-term measurements in consideration 
of VR&E and really trying to track these veterans and help them 
out as disabled veterans because over time, many of these 
disabilities will progress and they may need additional 
services 10, 15 years down the road, long after the delimiting 
date, or they may need to look at a new educational track or 
get additional vocational help.
    Mr. Teague. Okay. Just a couple of more questions for you, 
Mr. Brown.
    Do you believe that the VR&E's current funding level is 
sufficient to meet the needs of our veterans? Would you have 
some ideas on how we can streamline the VR&E entitlement 
determinations where it would benefit the veteran?
    Mr. Brown. Thank you for the question, Mr. Teague.
    To address the first point, no, we do not think that the 
compensation is high enough. We think that it should be at 
least, at least for the educational side, it should be at least 
at the equivalent of Chapter 33, the new GI Bill.
    In regards to entitlement and eligibility, I laid it out in 
my testimony that we should, if eligibility is proven, then we 
should assume entitlement. We have heard from VR&E that there 
is a lot of time being spent proving entitlement and the 
majority of these veterans are being found to have entitlement.
    So it is really just making the VR&E Program take more time 
from the time a veteran signs up for VR&E, is proven eligible, 
to the time that they are actually receiving rehabilitation 
services. So we think if you knock that out, you are going to 
cut down the amount of time that a veteran is waiting for 
services.
    Mr. Teague. Okay. Thank you very much.
    Mr. Walker, do you think that the VR&E needs more 
counselors and personnel?
    Mr. Walker. Yes. I think that they would benefit by having 
more staff to deal with the numbers of current cases as well as 
what we think will be an increase in the future with our 
returning veterans from the 2 wars.
    So we think staffing has been an issue and continues to be 
an issue and that we hope they can get the adequate amount of 
funding to do that.
    Mr. Teague. Should veterans who use VR&E services to secure 
immediate employment receive a monthly allowance?
    Mr. Walker. We do think so. The American Legion thinks that 
would be a way to keep those veterans in that track as well as 
obviously provide for their daily living expenses.
    So we think that is important because if this is an 
employment track, we think it would help them to be able to 
help them along as they search for employment. So we think this 
allowance would be a big boost and have an advantage for them.
    Mr. Teague. In your testimony, you state that VR&E needs 
relevant data concerning the number of veterans who are 
applying for benefits to project future workload. What data 
should VA be looking at and where can this information be 
found?
    Mr. Walker. Well, I just think they could take data from, 
you know, those who have already from the past fiscal years 
that have applied for disability benefits and kind of help them 
project. So that is all we are saying is to use the data that 
is already there that VA may better forecast future workload so 
they can have adequate staffing to assist our veterans as they 
go on and get in one of the tracks within the program.
    Mr. Teague. Okay. Thank you.
    Mr. Ciccolella, according to your written testimony, your 
field teams reported that the current subsistence levels under 
VR&E are inadequate and discourage individuals from enrolling. 
Can you explain how individuals are discouraged from enrolling 
and how the subsistence levels are inadequate?
    Mr. Ciccolella. Certainly, Mr. Teague.
    The subsistence level is based on the allowance for 
housing, which I believe for VR&E is $540 for single and about 
$700 for a married individual.
    What our field service teams tell us is that the feedback 
they get from the warriors in VR&E says that the program is 
simply not affordable. They do not have the money to actually 
afford to be in the program. Hence, they may drop out of the 
program and get into employment as quickly as possible.
    Mr. Teague. Okay. Thank you.
    At this time, I am going to yield to Ranking Member 
Boozman, if he has some questions that he would like to ask.
    Mr. Boozman. Thank you, Mr. Teague.
    Let me ask you a couple things, Mr. Ciccolella, that are 
related. In your testimony, you mention that the VR&E 
counselors do not systematically monitor progress and provide 
program assistance when needed.
    And if you could just kind of tell us what you mean by 
that.
    And then the other thing is there has been various people, 
and Mr. Buyer is talking about introducing legislation to 
create a fourth administration at VA and put things like VR&E 
in there.
    Do you believe that getting the program out of the shadow 
of the Compensation and Pension Program would increase its 
visibility?
    Mr. Ciccolella. Well, to your first point, Mr. Boozman, 
first of all, let me say that counselors, to our knowledge, are 
extremely well-trained. Most of them have Master's Degrees. 
There are certainly areas where they can improve in terms of 
training and so forth and so on.
    I think one of the things that detracts from the 
counselor's ability is the heavy caseloads and the second thing 
is probably the administrative workload that is associated with 
counseling. And that is huge.
    So I think those are 2 issues that we are going to study 
and we will certainly come back to the Committee and to the VA 
with some recommendations.
    Sir, to your second point, I would really have to defer to 
Secretary Hilda Solis and Secretary Eric Shinseki on that 
matter.
    Mr. Boozman. Mr. Brown, you mentioned the 12 years from the 
rating. Is that from the last rating you get? I mean, say a 
person was rated at 10 percent and then they had some condition 
that progressed and then they were rated later on at 50 percent 
or 70 percent. Is it 12 years from that last rating or is it 
from the initial rating?
    Mr. Brown. I believe it is from the initial rating, but I 
would have to get back to you on that. That is my understanding 
is that it is from the initial rating and then also 12 years 
after your end of service.
    Mr. Boozman. Good. I think you raise a valid point if that 
is the case in the sense you could start out with a condition, 
and I am just thinking out loud, but it seems like you could 
start out with a condition that perhaps, is fairly benign at 
that point, but is a progressive condition as a result of being 
service-connected. So I appreciate your bringing that out.
    I want to thank all of you all for being here. We 
appreciate the input. I think everyone, all of us agree that 
this is a very, very good program. And certainly the purpose of 
the hearing today is just to provide information so that we can 
make it even a better program. And I think in reading your 
testimony that you have done that and it has really been very 
helpful.
    So I yield back, Madam Chair.
    Ms. Herseth Sandlin [presiding]. Thank you, Mr. Boozman.
    I want to thank Mr. Teague for Chairing the Subcommittee 
hearing in my absence.
    I would like to recognize Mr. Perriello for any questions 
he has for our panel.
    Mr. Perriello. Thank you, Madam Chair.
    A few questions for the panel. First of all, are there 
particular issues in terms of the stipends and other issues you 
have raised that affect those disabled veterans coming from 
rural communities? My district is primarily rural. Are we 
seeing some of these issues hit in these areas?
    Mr. Ciccolella. Congressman, I am not certain I understand 
the question.
    Mr. Perriello. Well, let me start with a different thing 
and then come back to that.
    Mr. Ciccolella. Sure.
    Mr. Perriello. You had mentioned that 160,000, I think, 
veterans have lost work in the last 30 days. Are we seeing that 
happen in particular sectors or are we seeing any particular 
trends or is it mirroring the national economy which is, of 
course, in horrible shape right now?
    Mr. Brown. Thank you for the question.
    It depends on what demographic you do look at. The Bureau 
of Labor Statistics recently, just at the beginning of this 
month, the new statistics come out tomorrow, but they showed 
that there almost is a statistical significance between the 
youngest age demographic veterans outpacing the general 
population.
    Overall they are about neck and neck for veterans and the 
general population in consideration of employment. I do not 
know if it is necessarily tied to the rural areas. I do not 
have an answer for that.
    Mr. Perriello. Okay. For Mr. Walker, I just wanted to ask, 
you stated that veterans earn $32,000 after completing VR&E and 
$5,641 before entering.
    What do you think veterans were earning before entering the 
program? Do we have those statistics?
    Mr. Walker. No. The statistics that you are reading is 
actually before they actually enter the program and you see the 
huge difference that the program makes for the veteran who gets 
into it.
    So outside of that, I would not know the specific salaries, 
but obviously you see there is a big gap between once they go 
through the voc rehab program and the difference that it makes 
with education, training, as well as job placement.
    Mr. Perriello. Mr. Ciccolella, you were mentioning 90 
percent of people who apply to the program enter the program.
    What has been most effective in getting information out to 
people to convince them to apply? What programs have been 
successful that we might want to expand on in that area?
    Mr. Ciccolella. Well, the most effective way, thank you for 
the question, the most effective way to get that information is 
to get it to the servicemembers while they are still in the 
military. All servicemembers go through a transition assistance 
process.
    Unfortunately, sometimes the attendants and participation 
is uneven and there are some servicemembers who leave the 
military who do not get the benefit of that Transition 
Assistant Program.
    So on the one hand, the Department of Veterans Affairs and 
all of us have to do a better job of educating veterans once 
they leave the military. On the other hand, the U.S. Department 
of Defense (DoD) and the military services also bear a 
responsibility to ensure that every servicemember attends the 
Transition Assistance Program and that there is a very 
effective vocational rehabilitation and employment briefing as 
part of that Transition Assistance Program, which there is, but 
we also think that they should sign off on having received that 
briefing.
    Mr. Perriello. What would you say, Mr. Brown, is the top 
priority in terms of the stipend issues you mentioned. Is the 
12-year delimitation, really the thing that you think is the 
primary barrier right now?
    Mr. Brown. For the stipends?
    Mr. Perriello. Right.
    Mr. Brown. For the stipends, I think that they are just too 
low for the educational stipends for VR&E.
    You know, just in comparison to Chapter 33, if you have a 
young Member who has access to both benefits, you have Chapter 
33 that is going to pay you E5 BAH based on the zip code of 
your home, or, I mean, I am sorry, of the educational 
institution. And then you are looking at, you know, $500 or 
$700 from vocational rehabilitation.
    A lot of veterans might use Chapter 33 instead of the 
vocational rehabilitation and forego the additional benefits 
that do come with it.
    Mr. Perriello. Thank you very much.
    This is an issue I am keeping an eye on. A lot of the 
returning veterans in my district in southern Virginia, 
appreciate the new GI Bill but are particularly interested in 
some of the vocational and skills training programs.
    I have been working on a vet works bill to help support 
veterans in some of the areas you have mentioned, so I would be 
interested in following up with you to talk about ways we can 
help veterans get on track to learn a trade.
    So thank you very much for your time.
    Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Perriello.
    Let us take Mr. Perriello's line of questioning a little 
bit further just so I can hear from all 3 of you.
    Secretary Ciccolella, it is nice to see you and that you 
are in a position of continuing to serve our Nation's veterans.
    Your testimony addressed this, renewed questions about VR&E 
based on changes made to Chapter 33 in terms of Operation 
Enduring Freedom and Operation Iraqi Freedom (OEF/OIF) veterans 
in particular that they may qualify for both of the Chapter 33 
and VR&E benefits.
    What changes do we need to make? Is it all just related to 
stipend and overall amount of the benefit or is it about 
improving some of the programs?
    Secretary Ciccolella, I believe you stated, that your 
concern is that some of the OEF/OIF veterans are being steered 
away from the education track into the employment track.
    Can each of you elaborate more on your thoughts about 
changes that may be necessary to VR&E programs or adjustments 
that we would have to make legislatively? Perhaps balance some 
of the changes that we made to Chapter 33 so that the VR&E 
Programs do not become a neglected service that might be of a 
greater benefit, and a better fit for some of our veterans.
    Mr. Brown, why don't you start since you were responding to 
Mr. Perriello?
    Mr. Brown. Sure. And thank you for the question, Madam 
Chair.
    One of the big things that the VFW has recognized and 
really would like to stress is that, you know, we do think that 
there should be additional benefits, particularly in regards to 
disabled veterans with spouses and children, you know, whether 
this be in the form of child care, you know, or a subsidy for 
child care or if their spouse is having to take off time from 
her job, his job to help this disabled veteran, if there is 
anything we can really step it up kind of with a family focus 
that we think is lacking, whereas right now it is just very 
veteran focused.
    And, you know, to stress the incentive, if you have a 
family, these guys are going to the employment tracks because 
they need to make more money and, you know, they may not be 
able to afford long-term educational rehabilitation at $700 a 
month.
    Thank you for the question.
    Ms. Herseth Sandlin. Thank you.
    Either----
    Mr. Ciccolella. I think Mr. Brown makes a very good point.
    Wounded Warrior's position is that the VR&E Program should 
really be the crown jewel of VA's programs for serving veterans 
who are afflicted by their wounds and injuries from combat and 
disabilities.
    The number one issue on the table today is obviously the 
stipend. We have to make that program affordable. Our position 
is the stipend should be more generous than what we receive in 
the GI Bill or what they receive in the GI Bill.
    And that is because we want to make certain that 
servicemembers who are disabled get the advantages of all the 
good things that go on in the Vocational Rehabilitation and 
Employment Program, the day-to-day, in-person counseling and 
the follow-up and all their tuition and books paid regardless 
of where they go to school.
    The specialized services like tutoring and the 
rehabilitation counseling, those are just extraordinarily 
important.
    A second point, and made before, is that we just simply are 
missing some of our disabled veterans who leave the military 
and do not understand what VR&E is and what the program is.
    And I think the U.S. Government Accountability Office (GAO) 
report made clear that, you know, it is about 6 years when the 
average servicemember takes up the opportunity to go to 
vocational rehabilitation and employment.
    And, thirdly, I think that our position is clearly that 
service-connected disabled veterans should have access to their 
full vocational rehabilitation and employment benefit and they 
should also have access to their GI Bill benefit.
    Ms. Herseth Sandlin. Mr. Walker?
    Mr. Walker. Yes. We would like for the veteran who 
qualifies for Chapter 33 to better use that benefit along with 
the unique employment services that VR&E provides. I think that 
is where we stand.
    And also, if the veteran opts out of the education and 
training program and goes exclusively with the employment 
services track, that we would want that individual to receive 
some sort of allowance as well. So that is where our focus has 
been.
    Ms. Herseth Sandlin. I have one more question and a comment 
for this panel.
    In a recent roundtable discussion that Speaker Pelosi held 
with a number of veterans service organizations (VSOs), the 
comment was made about VR&E and making necessary adjustments to 
ensure that we are putting veterans on a path toward having a 
career rather than just finding a job.
    Could each of you comment on that remark and suggest ways 
in which we might make necessary changes to VR&E to ensure that 
it can be or can become once again the crown jewel as it 
relates to the programs administered for disabled veterans?
    Mr. Ciccolella. Well, for WWP's part, we really feel like 
the VR&E Program is just such a terrific benefit. But, again, 
it is absolutely critical that it be affordable.
    You have asked what would make this program more effective? 
Was that your question, ma'am?
    Ms. Herseth Sandlin. Yes, or do you agree with the comment 
that perhaps the way that the focus in recent years for some 
veterans and their experience with VR&E is that it is just 
about finding them employment. Its about getting them a job 
versus getting them on a path for a career choice and 
sustainable employment VR&E should be based on their choice of 
career and the skills that go along with that.
    Mr. Ciccolella. I see. We feel that the 5-track program is 
very, very effective and that program clearly works. I think 
truth be known, the majority of servicemembers who go to VR&E 
want to get their college education.
    Let us face it, servicemembers coming out of the military 
in many cases feel a compelling need to go into the workforce 
or for other reasons, they may be professionally qualified to 
go into the workforce.
    So whatever their decision is, we feel that they should be 
empowered to make that decision in conjunction with a counselor 
obviously, but they should be empowered to make that decision.
    Ms. Herseth Sandlin. Either of the other witnesses care to 
address that?
    Mr. Brown. Thank you for the question, Madam Chair.
    You know, our testimony really kind of focuses on this 
issue and our idea is that VR&E really does need to have a very 
long-term focus and that is career versus jobs. We do not think 
that the performance measures should be successful if a veteran 
is employed simply for 60 days with an employer. You know, we 
think that these performance metrics need to mirror the 
entirety of these disabled veterans' employable futures. So 
that has to go with the performance metrics. That has to go 
with changing the 12-year delimiting date and the amount of 
time we are saying that these veterans can use services.
    And that is our answer. Thank you.
    Ms. Herseth Sandlin. Thank you.
    Mr. Walker.
    Mr. Walker. Well, we would think that once they would go 
through the counseling and sort of the aptitude testing and all 
those things that VR&E would kind of lead those veterans with 
the proper skill sets into the right sort of career fields.
    I think that is important because we want again not to have 
jobs that can barely provide for our veterans because 
ultimately it is about financial independence, so we want to 
make sure the VR&E kind of keeps up with what is new, where the 
jobs are, and that should be a part of the criteria within the 
tracks and to help the veteran navigate that and put them on 
the right path for a career.
    Ms. Herseth Sandlin. Good point, Mr. Walker.
    My final comment would just be on something that Mr. 
Ciccolella mentioned and that is transition assistance. As you 
know, the Ranking Member and I for years now have been focused 
on the importance of making transition assistance more 
available and more effective for veterans.
    I think you raise an important point as it relates to the 
GAO findings, that it should be more available, if not 
mandatory, and with a focus on what is available, particularly 
with the increased number of people that may be looking to take 
advantage of these programs as they are transitioning not only 
out of theater but perhaps out of military service.
    We appreciate the testimony of all of our witnesses on the 
first panel. Thank you for the great work that you do on behalf 
of your Members, on behalf of all of our Nation's veterans and 
their families.
    Your insights that you have offered today are very 
important for the oversight that we will continue to do as it 
relates to the programs that come within our purview, 
jurisdiction of our Subcommittee, including VR&E. I think it is 
a timely hearing.
    Again, your testimony is invaluable to our work. We look 
forward to continuing to work with you. Thank you.
    Joining us on our second panel is Mr. John McWilliam, 
Deputy Assistant Secretary for Veterans' Employment and 
Training Service, U.S. Department of Labor, and Ms. Ruth 
Fanning, Director of Vocational Rehabilitation and Employment 
Service for the Veterans Benefits Administration, the U.S. 
Department of Veterans Affairs.
    We thank you both for being here at the Subcommittee. We 
have copies of your written statements which are entered into 
the hearing record. We will recognize you each for 5 minutes.
    Mr. McWilliam, why don't we begin with you.

 STATEMENTS OF JOHN M. McWILLIAM, DEPUTY ASSISTANT SECRETARY, 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
LABOR; AND RUTH A. FANNING, DIRECTOR, VOCATIONAL REHABILITATION 
AND EMPLOYMENT SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

                 STATEMENT OF JOHN M. McWILLIAM

    Mr. McWilliam. Thank you, Madam Chairwoman, Mr. Boozman. 
Thank you for the opportunity to testify today.
    I am pleased to discuss the collaborative efforts and the 
partnership between the Department of Labor and the Department 
of Veterans Affairs in our joint efforts to serve our Nation's 
disabled veterans in need of VR&E services.
    As the Committee is aware, senior leadership from both 
Labor and the VA, including the Assistant Secretary in VETS and 
the Director for VR&E, met with the Subcommittee staff in 2005 
to discuss how the 2 agencies could better collaborate.
    As a result of that meeting, a new memorandum of agreement 
was executed and 3 work groups were established. I am pleased 
to report that there is strong and continuing close 
collaboration between our 2 agencies.
    In 2008, we initiated monthly meetings with senior staff 
from both agencies. In addition, the joint working group meets 
periodically. The most recent meeting was just 2 weeks ago.
    Most of the Department of Labor's interface with the 
program is through the workforce investment system. 
Accordingly, we continue to work in partnership with our State 
Jobs for Veterans State Grant recipients on behalf of VR&E job-
ready veterans who are referred to and registered with the 
State workforce agencies.
    VETS is working toward ensuring that a veteran's employment 
representative is out-stationed at each of VA's regional 
offices. Currently we have people in 47 offices. Our standard 
is one per office and that will be a requirement in 2010.
    The joint working group has become a key to success of this 
program. We have both taken an active role with the group. Ms. 
Fanning and I have a personal interest in the issue and have 
been involved in meetings with the joint working groups.
    These groups have made significant accomplishments. They 
facilitated an 8-site pilot program to identify and catalogue 
best practices. They have developed roles and responsibilities 
for all staff in the program, identified the major issues in 
providing shared data collection, identified joint training 
requirements, and wrote a joint technical assistance guidance 
document that was published by both departments last December.
    As we move into the implementation phase, the work group 
will be developing joint training, conducting technical 
assistance visits, and resolving the data collection issues.
    Again, let me state that Labor is proud of our 
collaboration with Veterans Affairs to increase employment 
opportunities for service-disabled veterans.
    This concludes my statement. I look forward to addressing 
your questions.
    [The prepared statement of Mr. McWilliam appears on p. 42.]
    Ms. Herseth Sandlin. Thank you, Mr. McWilliam.
    Ms. Fanning, welcome. You are now recognized.

                  STATEMENT OF RUTH A. FANNING

    Ms. Fanning. Madam Chairwoman, Ranking Member Boozman, 
thank you for inviting me to appear before you today to discuss 
VA's Vocational Rehabilitation and Employment Program.
    VR&E's 1,100 employees and 57 regional offices and over 100 
out-based offices provide career and independent living 
services to veterans and servicemembers through our Coming Home 
to Work and VETSuccess programs.
    The Coming Home to Work Program is VR&E's aggressive 
outreach program. It is focused on easing servicemembers' 
transitions into their educational and career paths. Coming 
Home to Work services include career counseling, training, and 
work experience, and allows early entry into VR&E's services 
during active-duty medical hold status.
    Outreach is conducted at DoD facilities, VA medical 
centers, and special homecoming events, with recent expansion 
focused on outreach to Guard and Reserve Members during post-
deployment health reassessment events and yellow ribbon 
functions.
    Coming Home to Work coordinators are stationed full-time at 
12 military treatment facilities and in every regional office.
    VR&E VETSuccess services assist veterans to plan for their 
careers, start their own businesses, complete training or 
education, and successfully compete for suitable employment.
    For those veterans whose disabilities are so severe that 
employment is not possible, VR&E provides independent living 
services.
    VET Success services are tailored to meet each individual 
veteran's needs and are provided within 5 tracks of services 
that include: reemployment, rapid access to employment, self-
employment, employment through long-term services, and 
independent living.
    The typical VR&E participant is in the age range of 30 to 
39, served during the Gulf War era, and most often has a 
disability that results from an orthopedic injury, although I 
will note that the typical OEF/OIF veteran is in the 20 to 29 
age range.
    Currently, over 106,000 veterans and servicemembers are in 
the VR&E Program in statuses that range from applicant to job 
placement. Over 71,000 new applications were received for our 
program last year, representing over a 13-percent increase from 
the prior year.
    The primary VR&E performance goal is the rehabilitation 
rate. Despite the current economic environment, the 
rehabilitation rate has remained steady in both fiscal year 
2008 and this year to date. The rehab rate is 75 percent. This 
represents almost 8,800 veterans achieving their career goals 
and another 2,200 reaching their independent living goals.
    Average entry-level earnings are approximately $33,500 a 
year and the average program cost for a rehabilitated veteran 
is about $32,000.
    Next, I would just like to highlight some of VR&E's 
initiatives. First, our partnership with the Department of 
Labor's Veterans' Employment and Training Service remains a top 
priority. It is focused on advancing, improving, and expanding 
employment of veterans with disabilities. Together VETS and 
VR&E have established a Joint Work Group that you have just 
heard about and the results have been that we have implemented 
a best practice model.
    This model has improved working partnerships between VETS, 
VR&E, and State workforce agencies around the country and 
strengthened our joint focus on helping veterans become 
suitably employed.
    Work is in progress to obtain contract support to conduct 
the VR&E longitudinal study with VA scheduled to deliver the 
first report about the 2010 cohort to Congress in July of 2011.
    Next, in order to increase awareness of VR&E's services for 
servicemembers, veterans, and the business community, we are 
launching a marketing campaign. VR&E is branding our employment 
and independent living services as ``VETSuccess'' and we are 
redesigning our veteran-focused Web site, VetSuccess.gov, to 
provide even more tools for veterans to achieve their career 
and independent living goals.
    As part of this redesign, VR&E partnered with 
DirectEmployers and the National Association of State Workforce 
Agencies to incorporate the Job Central database of over a half 
million jobs into our Web site. VetSuccess.gov also contains a 
specialized job bank for veterans receiving VR&E services.
    VR&E is also focused on equipping our staff to meet the 
needs of today's veterans through development of both live 
training and computer-based training tools, new counselor 
training, new manager training, and we are working with the 
Council for the Certification of Rehabilitation Counselors to 
support continuing education for our counselors who are 
certified.
    In closing, VR&E has made significant program improvements 
in the past 4 years. The VR&E Program is veteran focused with 
services directly linked to helping veterans enter suitable 
careers and achieve maximum independence at home and in the 
community.
    We continue to work aggressively to improve and market the 
VR&E Program in order to assist more veterans who achieve their 
rehabilitation and employment goals, always very important, but 
even more vital during the current economic downturn.
    Madam Chair, this concludes my statement. I would be 
pleased to answer any questions that you or any of the other 
Members of the Subcommittee have.
    [The prepared statement of Ms. Fanning appears on p. 45.]
    Ms. Herseth Sandlin. Thank you, Ms. Fanning.
    Mr. McWilliam, let us begin with you.
    According to the written testimony submitted by the 
American Legion today, some States report a total lack of 
communication and information sharing, while other States enjoy 
a strong relationship between the local VETS and VR&E office.
    I have heard some of these same issues in some of the field 
hearings that we have had over the last couple of years. Some 
States just do better than others as it relates to the 
interaction and programs administered by the Department of 
Labor.
    Can you explain why there seems to be that some States do 
very well and other States seem to do very poorly when it 
relates to information sharing and communication?
    Mr. McWilliam. Madam Chair, that is one of the primary 
lessons that we have learned from looking across the United 
States at this.
    Up until now, the relationship was really up to the VR&E 
officer and the DOL's State Director, the DVET. That is why we 
decided through the joint working group that we would clearly 
identify the roles and responsibilities so that there was no 
question any longer.
    We have also created a data collection tool that will be 
mandatory starting this fiscal year. It is being implemented 
right now so that the joint working group can look at the 
results, referrals, and registrations from office to office and 
understand very clearly where the relationship is working well 
and those areas that need further training.
    Ms. Herseth Sandlin. How do you anticipate measuring 
progress on that front then? Do you have something built-in 
based on steps you are now taking as you just described to 
overcome that? When will you reevaluate whether or not we have 
seen progress in those areas where clearly there were problems?
    Mr. McWilliam. We are continuing to meet, Madam Chair. The 
joint working group is, as far as I am concerned, more or less 
a permanent organization. We will start this collection tool. 
It is starting this year. It will be mandatory starting in 
October and we will look at it on a monthly basis to understand 
the progress being made office by office.
    Ms. Herseth Sandlin. Thank you.
    One other question. In the table you provided on page 3, 
you have 6,068 registered veterans, yet only 3,500, just over 
3,500, entered employment.
    Can you explain what the reason would be for such a steep 
dropoff and what information we have on the veterans who did 
not enter employment?
    Mr. McWilliam. Thank you, Madam Chairwoman.
    The unemployment rate is approximately 58 percent for this. 
This report compares very favorably to that received for the 
one-stop career center, for DVOPs who do intensive services.
    The 58 percent is being looked at right now. We are looking 
at it in the one-stop career centers to understand why people 
do not have successful outcomes for their employment services.
    I am sure that these lessons that we learn there will be 
used to understand the VR&E process also.
    Ms. Herseth Sandlin. Ms. Fanning, you heard in the 
testimony of the prior panel a couple of issues being 
discussed. So I just want to pose these questions to you and 
see whether or not the administration has a position.
    Should the VR&E Program have a housing stipend that is 
equal to or better than the new GI Bill?
    Ms. Fanning. This is an issue that we are studying. I 
cannot provide a position to you today. I can tell you that we 
do assist veterans during their participation in a vocational 
rehabilitation program to obtain transitional employment that 
is related to their ultimate career goal, that will make them 
more employable as they progress through their program, and 
also to meet any financial needs they may have that the 
subsistence allowance does not offset.
    Ms. Herseth Sandlin. But you are currently studying whether 
or not that subsistence benefit is sufficient----
    Ms. Fanning. Yes.
    Ms. Herseth Sandlin [continuing]. In light of the changes 
that we have made to Chapter 33?
    Ms. Fanning. We are studying the recommendations made by 
the Veterans Benefits Disability Commission, by the Dole-
Shalala group. We are looking at the study analysis that was 
done by EconSys and looking at all of those recommendations, 
not just in terms of the GI Bill stipend and housing allowance, 
but more the global issue of the transition benefit and bonuses 
and incentives that were recommended by all of those groups.
    Ms. Herseth Sandlin. You also heard that some veterans 
service organizations believe that the metrics used by VR&E to 
measure success are at times inaccurate or at times misleading. 
Do you believe that the time has come to reevaluate the metric 
that is used to better reflect success from beginning to end in 
the VR&E Program?
    Ms. Fanning. That is one of the things that I am committed 
to doing. VA actually is working currently with the Office of 
Policy and Planning to do an overall program evaluation of the 
VR&E Program.
    Some of the research study questions that the group is 
looking at is how do we effectively capture all of the outcomes 
that are achieved through the program rather than just looking 
at one isolated metric at the conclusion.
    We are also currently looking at extending the follow-up 
for the program out to the 1 year point. We are working with a 
contractor to study this issue in terms of the most effective 
way in reaching out to veterans after they have left our 
program, what is their preference, what is the most effective 
in terms of getting responses out to that 1 year point.
    We have separated our rehabilitation rate now to also 
include independent living rehabilitation rate and employment 
rehabilitation rate to make it very clear what the various 
components of the program results are.
    I also think that we need to look at other services that we 
provide during the course of the program, including career 
guidance that leads to making appropriate decisions even if 
that decision is that using the GI Bill is the best thing for 
that individual veteran.
    As you know, VR&E is a benefit program. It is not a 
mandatory program. And we want to help veterans make informed 
decisions about what is best for their lives.
    So I think that we provide services along the way that do 
provide much benefit and I do want to capture all of that.
    Ms. Herseth Sandlin. Well, along that line in terms of the 
fact that it is a benefit program and wanting veterans to know 
what their options are and utilize the various programs most 
effectively. As you know, last year, Congress passed a bill 
clarifying the use of mass media. Is VR&E using mass media to 
provide outreach to veterans and educate family Members about 
these benefits?
    Ms. Fanning. We are really just at the beginning of that. 
We have recently put on YouTube 3 different videos that feature 
3 veterans who have been in the VR&E Program and they are 
branded with the VetSuccess.gov logo so that as veterans or 
family Members look at these very concise little videos, they 
will be directed back to the VA site to learn more about the 
program.
    We have designed a marketing campaign and as I mentioned in 
my testimony, trying to work to brand our program to make the 
services we offer much more clear to our stakeholders, to 
veterans, and to the business community. Frankly, so that they 
know what we are offering and will come in and take the benefit 
of it.
    I have been working with public affairs to get some press 
releases out and to take advantage of some of the new 
techniques for social media. So we are really at the beginning, 
but I have staff back in my office working on a full marketing 
campaign. And I think you will see a lot more to come from 
that.
    Ms. Herseth Sandlin. If you could keep the Subcommittee and 
our staff apprised of those efforts, we would appreciate it.
    Ms. Fanning. I would be happy to do so.
    Ms. Herseth Sandlin. Another question before I recognize 
Minority Counsel for some questions that I know the Ranking 
Member wanted to pose before he had to leave.
    As you heard from again testimony from the prior panel, the 
Wounded Warrior Project recommends that counselors not exceed 
30 to 40 cases per counselor for moderate to severely-disabled 
veterans.
    Do you agree with this recommendation and how many more 
counselors would VR&E need if this idea were to be implemented?
    Ms. Fanning. Well, I would need to go back and do the math 
for that. I can tell you that currently the caseload per 
counselor averages one to 135. So each counselor has about 135 
veterans they are working with.
    Now, having said that, some offices do specialize their 
counselors, so they may have a counselor--for example, when I 
worked in Florida and worked with Traumatic Brain Injury 
veterans from James Haley, I had a much smaller caseload. So 
the offices do have the ability to be flexible and specialize 
certain counselors to work with veterans with significant 
disabilities. But that does mean, of course, that other 
counselors will have a heavier caseload of veterans to work 
with.
    Ms. Herseth Sandlin. Okay.
    Ms. Fanning. We do have the flexibility currently to use 
contractor services to supplement the services of our 
counselors, but it also gives us a little more ability to focus 
extensive and intensive resources for veterans who need more 
than a counselor with a caseload of 135 could reasonably 
provide.
    So, again, as an example, in working with a veteran with a 
Traumatic Brain Injury who is just transitioning out of 
inpatient care and who may need very extensive services to get 
back into their home, as well as their family may need services 
to adapt to that disability, we have the ability to provide a 
trained, highly competent contractor to work with that 
individual 10, 20 hours a week, whatever is needed.
    Ms. Herseth Sandlin. The minority counsel Mr. Brinck?
    Mr. Brinck. Thank you, Madam Chair.
    Ms. Fanning, good afternoon.
    Does VA have any data on how disability ratings increase 
over a vet's lifetime? And I know that is probably not 
something you have and if you would like to provide that for 
the record, that would be fine.
    Ms. Fanning. I would be happy to go back and study that for 
the record.
    [The VA subsequently provided the following information:]

    VA does not have data on how disability ratings change over 
a Veteran's lifetime.

    Mr. Brinck. Thank you.
    In answering, Mr. McWilliam, in responding to the Chair's 
question regarding the 58 percent unemployment rate, you 
mentioned lessons learned that were going to be collected.
    How soon do you expect that the Subcommittee could get a 
copy of those lessons learned?
    Mr. McWilliam. Mr. Brinck, I do not know the status of it 
now, but I will certainly provide that to you.
    [The DOL subsequently provided the following information:]

    The best practices are contained in the Joint Working 
Group's Final Report on the Pilot Sites. The Report was 
forwared to the VA for their approval on August 14, 2009. The 
Report will be retained in the Committee files when it has been 
received by the Committee.

    Mr. Brinck. Okay. Thank you.
    Ms. Fanning, currently Chapter 36 counseling is limited to 
about $6 million, if I remember correctly.
    Is that sufficient to accommodate counseling all those that 
are coming to you seeking that type of counseling?
    Ms. Fanning. At this time, we are working within that 
budget. We have not reached that threshold. I can tell you that 
we are aggressively providing outreach, including not only 
using Chapter 36 during the transition of those individuals on 
medical hold or just getting out of the military, but also 
providing services to veterans using education benefits who may 
need career counseling or adjustment counseling during their 
school programs.
    We are okay now. We are not exceeding our budget or bumping 
up against it. I cannot predict what the future growth may be 
since I am personally putting a very large focus on outreach in 
our program.
    Mr. Brinck. Thank you.
    Continuing on the contracting level, who will be 
responsible for implementing the national counseling contract 
at the local level? What implementation guidance will you 
provide and how will you enforce that guidance? In other words, 
who is going to implement the national contract? I believe you 
have 8 contracts out there.
    Ms. Fanning. Yes.
    Mr. Brinck. How will that be implemented locally and what 
guidance are you going to provide to the field as part of that?
    Ms. Fanning. The new contracts were awarded last July and 
before they were implemented, we had a national conference 
where we pulled together all the contract specialists who act 
as the quality managers for the contract. We have 19 of them 
spread throughout the country, our contract specialists in 
Central Office-we have 2 on staff, the contracting officer who 
did the awards, and all the VR&E officers who serve as 
Contracting Officers Technical Representatives (COTRs) for the 
contracts. In addition, we brought the principals from the 
prime contractors for those 8 contracts awarded throughout the 
country.
    We brought them in for a week. We provided extensive 
training about the contract. We had breakout sessions for each 
group in terms of what was required for the contract 
administration, managing performance, meeting minimums, really 
from start to finish.
    We also trained the contract staff, the new prime 
contractors on what we expected, what does it mean to serve a 
veteran in VR&E, what are our expectations for a good 
counseling, for a good rehabilitation plan that is recommended, 
case management, et cetera.
    In follow-up to that, we have had extensive work with our 
field offices. We have had weekly, and now biweekly, calls to 
make sure that implementation is effectively carried out and 
that any problems that occur, because we are standing up 
brandnew contracts that are now, you know, just a few months 
old, that those problems are addressed proactively.
    I hope that answers your question, Mr. Brinck.
    Mr. Brinck. Just a follow-up.
    What kind of data will you be collecting from these 8 
contractors?
    Ms. Fanning. The data that we are collecting is from our 
COTR staff and Quality Assurance Management Staff (QAMS), the 
contracting specialists, in terms of timeliness of services, 
quality of services, any problems, any complaints, as well as 
stories of good performance.
    We want to track the performance both positive and 
problematic so that we can be proactive and jump in to correct 
any issues. Obviously in doing so, we are working with the 
Office of Acquisition and Logistics where the contracting 
officer resides to actually solve those problems and work them 
through.
    Mr. Brinck. Okay. With your indulgence, one more.
    You mentioned, Ms. Fanning, working with the Commission on 
Certification of Rehab Counselors (CRCC).
    What percentage of your staff are certified by CRCC as 
rehab counselors and how does VA's hiring qualifications for 
counselors compare with the requirements for certification and 
do you require your counselors to participate in continuing 
education?
    Ms. Fanning. Currently, 35 percent of our counselors, 
including myself, have CRCC certification. We do have an 
extensive training program that includes working with the CRCC 
to get continuing education credits for those counselors on our 
staff who are certified.
    I looked at both our requirements for hiring as well as 
those that CRCC requires. CRCC requires a counseling-related 
degree for the minimum to qualify for CRC. We require a 
Master's Degree in rehabilitation counseling or a closely 
related degree.
    And we will qualify an individual with a closely related 
counseling degree if they have certain class work that relates 
to the rehabilitation and counseling field, for example, 
understanding the vocational implications of medical 
disabilities.
    So an individual with a guidance counseling degree as an 
example could take additional course work and quality for our 
positions. We do not require currently CRC as a part of the 
criteria to apply and be hired for a VR&E position.
    Mr. Brinck. Thank you for extending that courtesy, Madam 
Chair.
    Ms. Herseth Sandlin. Of course.
    Just a couple more questions, Ms. Fanning.
    The first one goes back to the issue of adequate number of 
counselors and workload that they are carrying. Could you 
respond to the recent GAO report that noted that 54 percent of 
all 57 regional offices have fewer counselors than they need 
and 40 percent said they had fewer employment coordinators than 
they needed?
    Ms. Fanning. Absolutely. Currently we have, as I said, 
about 1,100 employees nationally. Just to break that down for 
you, I mentioned the caseload for the counselors is 1 to 135 
and we have just over 800 counselors and we have 133 employment 
coordinators. Looking at just the job ready caseload, that is a 
1 to 53 ratio for the employment coordinators of those veterans 
who are in some kind of a job search phase.
    The GAO study actually went out and surveyed our field 
managers and asked them for their opinions about staffing and 
qualifications. And we do have many new counselors on our 
rolls. Last year alone, we trained over 150 new counselors in 
centralized national training and we are currently planning to 
train 100 more this year.
    So we are hiring a lot of new individuals. In turn, that 
requires a big investment in training and getting them--they 
are highly competent in their fields of rehabilitation 
counseling and related fields of counseling, but they need to 
learn how to work with veterans. They need to learn about the 
signature disabilities that our current veterans are facing and 
how to specifically address the employment needs related to a 
veteran who has PTSD or Traumatic Brain Injury.
    That is where our focus is. We do not need to train them 
how to do rehabilitation counseling, but we do need to train 
them how to work effectively with veterans and understand their 
life experience and the specific challenges they face.
    Ms. Herseth Sandlin. So you would disagree with the GAO 
report in terms of inadequate number of counselors in these 
regional offices?
    Ms. Fanning. I do not disagree that that is what they heard 
from our field offices. The staff around the country are 
working extremely hard and their passion is in serving 
veterans.
    Ms. Herseth Sandlin. So, of course, they would want more 
help if they could get it.
    Ms. Fanning. And who would not want more? The more staff we 
have, of course, the more intensive services we can provide. 
And it does not surprise me that my field managers would say 
that. They want to be there and meet every need of the 
veterans. And, of course, that is what I want them to do.
    Ms. Herseth Sandlin. Okay.
    Ms. Fanning. But I do think that part of the challenge, and 
I apologize for interrupting you----
    Ms. Herseth Sandlin. No.
    Ms. Fanning [continuing]. I think part of the challenge is 
that they have so many new counselors on their rolls and it 
takes time for them to be fully proficient in their jobs. In 
the meantime, they still have--you know, just this last year 
alone, we had over a 13-percent increase in applicants. So they 
are feeling that increase and struggling to make sure that they 
still provide timely and complete services.
    Ms. Herseth Sandlin. So you said VA has hired a lot of new 
counselors. What percentage increase based on the number of 
counselors that were in your regional offices and employment 
coordinators from fiscal year, say, 2007? What was the increase 
in hires to 2008 and then to this year? Do you have those 
numbers?
    Ms. Fanning. I apologize that I do not, but I will be glad 
to provide those for the record.
    [The information was provided by VA in response to Question 
1 of the post-hearing questions and responses for the record, 
which appear on p. 59.]
    Ms. Herseth Sandlin. Okay. That would be helpful.
    Some of what we are hearing from the testimony today and 
some of what we have been hearing in the meetings that have 
been going on about VR&E at the staff level working with the 
different VSOs and folks like yourselves that are administering 
these programs, is it we were able to find additional 
resources, we need to know from you how you think they need to 
be targeted to make VR&E an even better program for the 
veterans that it is serving.
    Should it go to a family focused benefit that helps cover 
child care expenses, other issues? Should it go to some better 
way of focusing on one or all of the 5 tracks? Should it be 
toward adding additional counselors?
    We need more information from you that if in the event that 
we were able to find additional resources to improve this 
particular benefit program, how from your perspective should 
those additional resources be allocated?
    My final questions goes to the Independent Living Program. 
The cap in the Independent Living Program has never been met. 
From your perspective why has this cap not been met and what 
outreach is VR&E doing to inform potential users of this 
particular program? Do you have what you need to do effective 
outreach in this area and is the program being utilized to a 
greater extent in certain parts of the country than others?
    Ms. Fanning. Starting with the last part of your question, 
I will need to go back and study that to see if there are any 
geographic differences.
    [The VA subsequently provided the following information:]

    Yes, certain parts of the country utilize Independent 
Living services to greater extents than other areas. We find 
higher concentrations of IL utilization in States that draw 
Veteran retirees, such as California, Florida, and warmer 
southern States. We also find higher concentrations of IL 
utilizations around polytrauma centers where these services can 
contribute to the recovery of wounded OEF/OIF Veterans.
    VR&E Service monitors and assesses IL utilization rates to 
identify training needs for VR&E staff. We currently provide a 
week long ``train the trainer'' workshop on IL services at the 
VBA Academy in Baltimore, MD. This workshop highlights new IL 
developments and projects, including services for seriously 
injured OEF/OIF Veterans, home modifications, and IL referral 
resources such as non-profit agencies and assistive 
technologies. This workshop is just one part of our strategic 
efforts to ensure Veterans receive the best possible support 
form VR&E.

    I think that, you know, part of our challenge, Madam Chair, 
is that we are marketing our program. The name of our program 
is Vocational Rehabilitation and Employment. We may not have 
that clarity for some veterans about the independent living 
services that we are providing and that are available to them.
    So part of our marketing strategy in getting the word out 
about the services that are available is in emphasizing all 5 
tracks, not just the employment part of the program.
    What we do in the Independent Living Program, although it 
is a small program currently, is so vitally important. We are 
serving the most seriously injured veterans through that 
program. And we want to ensure that it is fully utilized and 
that it is being taken advantage of.
    Ms. Herseth Sandlin. We have a vote. We have about 8 
minutes to get there. I have one more question.
    There was a recent article about a film training and job 
placement program created for wounded Marines and Corpsmen in 
2007 and the article asserts that veterans were signing over 
the bulk of their education benefits and were not being 
employed.
    Can you comment on the status of this school? Are you 
familiar with what I am referring to and is it still certified 
to accept VA benefits and are you looking into these 
allegations?
    Ms. Fanning. This is a new facility that was certified at 
the end of 2007. One class, the first class, has gone through 
the program and a second class is enrolled.
    So, yes, we are working very closely with the Regional 
Office who has jurisdiction of those programs where it is 
located.
    Ms. Herseth Sandlin. But they are still certified to accept 
benefits?
    Ms. Fanning. They are still certified and veterans and some 
servicemembers are enrolled in the program. This program is 
unique in that it was set up to serve servicemembers and 
veterans with the most serious of disabilities to go through an 
accelerated program with a cohort of servicemembers and 
veterans who have similar issues, significant disability 
issues.
    It is an accelerated program that rather than going through 
a long-term school program that may take 2 semesters or more, 
it is concentrated with a high level of staff focus in a few 
weeks.
    It is also unique in that at the end of the program, 
veterans receive a union card which is really the ticket to 
employment in the film industry. And the film industry is also 
one of the growth industries that is out there.
    Ms. Herseth Sandlin. But of those who have been 
participating in this program, we have a number of veterans who 
have completed it, correct?
    Ms. Fanning. Yes. The first group did graduate.
    Ms. Herseth Sandlin. What is the employment rate? I mean, 
they have their card, but we have some serious allegations 
being made here.
    Ms. Fanning. Yes.
    Ms. Herseth Sandlin. It is an unfortunate fact of life that 
when benefits are available and particularly among those most 
vulnerable who are recipients of those benefits that there are 
people out there looking to create something that just simply 
takes advantage of the resources without providing an essential 
service to the veteran.
    I want to be assured that you are taking seriously the 
allegations that are being made and that while, yes, this is a 
new program, it is a unique program, their intentions may very 
well be a good one, at the same time, we have to stay on top of 
programs like this to ensure that ultimately the successful 
outcome is employment.
    Ms. Fanning. Oh, I could not agree with you more. And we 
certainly do take this very seriously. The staff at the 
Regional Office meet with the school officials and with the 
veterans weekly.
    Ms. Herseth Sandlin. Okay.
    Ms. Fanning. They have an ongoing dialog and they are very 
responsive to any problem issue that is brought up, including 
this recent media attention. They are looking at the first 
group and they are studying, and I apologize that I do not have 
that data with me in terms of the first group who graduated, 
what is their placement status at this point. I would be glad 
to provide that.
    Ms. Herseth Sandlin. Yes, if you could.
    [The information was provided by VA in response to Question 
3 of the post-hearing questions and responses for the record, 
which appear on p. 61.]
    Ms. Fanning. But I can assure you that the staff are 
working very hard to make sure that this is the right program 
for these individuals and they are not signing over their VA 
benefits.
    I think even through the testimony of the panel before me, 
you got a very clear idea of the scope of benefits that are 
available to veterans. They do have 48 months of benefits 
available to them within that basic 12-year period.
    But most of the veterans and servicemembers who are engaged 
in this program, as I understand, would meet the category of 
being severely disabled and benefits could be extended even 
beyond those 48 months or that delimiting period.
    Ms. Herseth Sandlin. Okay.
    Ms. Fanning. But I assure you that I am very engaged in 
this and I will remain so.
    Ms. Herseth Sandlin. Okay. Thank you.
    I thank you both for your testimony and your responses to 
our questions.
    I want to thank our other witnesses that were here earlier 
for their testimony and insights.
    For the both of you, we value your expertise, your 
dedication in administering these programs, your ideas that you 
shared today, and other information and other suggestions that 
you will hopefully continue to make to us on an ongoing basis 
because of the importance of the VR&E Program to so many of our 
Nation's veterans and the importance of that program to those 
who are newly returned.
    Again, thank you for being with us today. The hearing is 
now adjourned.
    [Whereupon at 2:29 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman, 
                  Subcommittee on Economic Opportunity

    Today's hearing will give the Subcommittee the opportunity to learn 
more about the Department of Veterans Affairs' Vocational 
Rehabilitation and Employment Program and its relationship with the 
Department of Labor in assisting our veterans obtain meaningful 
employment while healing from the wounds sustained while in military 
service.
    Some of our panelists might recall that this Subcommittee held 2 
hearings on VR&E in the last Congress. These hearings afforded us the 
opportunity to hear from stakeholders on their concerns and 
recommendations to improve upon existing programs.
    It is very important that we continue to examine these concerns, 
especially at a time when our country's veterans are experiencing post-
traumatic stress disorder, Traumatic Brain Injury, amputations and 
severe burns that would have been fatal in previous conflicts.
    As a result of previous hearings, we successfully passed Public Law 
110-389, the Veterans' Benefit Improvement Act of 2008 which:

    <bullet>  Waives the 24-month limitation on Independent Living 
services for veterans who served after September 11, 2001;
    <bullet>  Increases the cap on number of veterans participating in 
Independent Living from 2,500 to 2,600 veterans;
    <bullet>  Requires the Secretary of Veterans Affairs to conduct a 
1-year study on measured to assist and encourage VR&E program 
completion; and
    <bullet>  Requires the Secretary of Veterans Affairs to conduct a 
20-year longitudinal study on VR&E participants.

    I can assure our panelists that we will continue to monitor the VA 
as it implements these changes and works on providing us the required 
reports. The men and women who serve our Nation honorably deserve and 
should receive the best our country can offer.
    While the changes we made in the 110th Congress are a step in the 
right direction, we continue to hear from the veterans' community 
concerned that further improvements are needed. At the suggestion of 
the Military Officers Association of America and the veterans' 
community, Chairman Bob Filner recently introduced H.R. 1821, the 
``Equity for Injured Veterans Act of 2009.'' Mr. Filner's legislation 
seeks to assistance VR&E participants by:

    <bullet>  expanding VR&E participating eligibility for a period of 
15 years;
    <bullet>  augmenting housing stipend assistant to the same levels 
as Chapter 33 housing stipend recipients;
    <bullet>  authorizing the Secretary to pay subsistence allowance 
for a period of 6 months after program completion;
    <bullet>  authorizing the Secretary to provide reimbursements for 
child care services; and
    <bullet>  requiring the Secretary to modify its VR&E reporting 
requirements.

    I am pleased to hear that Secretary Hilda Solis and Secretary Erik 
Shinseki reaffirmed their commitment to assisting our Nation's veterans 
during their respective confirmation hearings. I look forward to 
working with the Secretaries, the Members of this Subcommittee and 
stakeholders to evaluate legislative proposals that seek to equip our 
veterans with the tools they need to succeed after military service.

                                 <F-dash>
  Prepared Statement of Hon. John Boozman, Ranking Republican Member, 
                  Subcommittee on Economic Opportunity

    Good afternoon Madam Chair and to everyone. I would like to extend 
a special welcome to the former Assistant Secretary of Labor for the 
Veterans' Employment and Training Service Mr. Chiccolella and I suspect 
it was much easier to have your testimony cleared for today's hearing 
than it was with OMB.
    When I think of benefits to improve the lives of disabled veterans, 
I am very proud of the Vocational Rehabilitation and Employment. VR&E 
is the most flexible and generous among the programs for disabled 
veterans administered by VA. I also suspect VR&E is the most effective 
disability rehabilitation program offered by the Federal Government. 
And it should be.
    Having said that, we still face significant challenges to increase 
the number of disabled veterans who successfully complete their 
rehabilitation program, whether through long-term education or 
immediate job placement services.
    I believe veterans continue to drop out of the program for reasons 
within our control. For example, increasing the stipend to $1,200 per 
month as proposed in Ranking Member Buyer's H.R. 297, Veteran 
Vocational Rehabilitation and Employment Subsistence Allowance 
Improvement Act of 2009 and which I am a cosponsor of, would be a 
significant improvement by reducing the number of veterans who drop out 
because of the need to work full time to support their families. Madam 
Chair, if by some strange circumstance we find some PAYGO resources, I 
believe increasing the stipend should be high on our list of uses for 
the money.
    I am also concerned that in our zeal to rehabilitate veterans and 
return them to the workforce, the program occasionally fails to 
consider all aspects of a potential training program including cost and 
availability of similar opportunities at much lower cost. For example, 
recent press articles questioned the appropriateness of a program to 
train wounded Marines for careers in the entertainment industry.
    The articles stated VA paid over $88,000 for each 19 wounded 
Marines who completed the 10-week course that had been offered 
originally as a free course. The VA paid over $64,000 for each of a 
second group of 8 wounded Marines who completed the course. Similar 
courses were available in the area for 80 percent less and I note that 
the institution in question had been previously denied approval for GI 
Bill benefits.
    VA has a well-developed process that uses the State Approving 
Agencies to approve courses for education benefits. While I understand 
that VR&E staff have the authority to approve education and training 
courses for their participants, it is entirely appropriate that they 
seek the assistance of the State Approving Agencies whenever veterans 
seek to use VR&E benefits to attend unusual courses like the one I just 
mentioned.
    I still do not understand how VA calculates the rehabilitation 
rate. To me, if you have about 100,000 participants and 12,000 are 
rehabilitated in a year, the rate is 12 percent, not 75 percent. I also 
believe that 12 percent is not necessarily bad, given that you are 
serving a group of disabled veterans whose needs are more difficult to 
solve.
    Finally, I want to thank Director Fanning and her staff for their 
efforts to put disabled veterans back to work. I recognize that the 
case I just mentioned is likely an exception to their standard 
practices and I am willing to work with all the stakeholders to ensure 
that disabled veterans receive the best possible opportunity to pursue 
their working careers.
    I yield back.

                                 <F-dash>
         Prepared Statement of Mark Walker, Assistant Director,
                  Economic Commission, American Legion

    The mission of the VR&E program is to help qualified, service-
disabled veterans achieve independence in daily living and, to the 
maximum extent feasible, obtain and maintain suitable employment. The 
American Legion fully supports these goals. The Vocational 
Rehabilitation program has historically been marketed to veterans as an 
education program and not an employment program. A majority of veterans 
attended universities and colleges with few enrolled in training 
programs, such as apprenticeships and on-the-job training that can lead 
to direct job placement. Eligible veterans who are enrolled into the 
education and training programs receive a monthly allowance; those 
veterans who use VR&E for assistance with immediate employment do not. 
This policy leaves out needed assistance for veterans looking for 
immediate employment, which could lead that veteran into a different 
track and miss out on early entry into the civilian workforce. Another 
problem hindering the effectiveness of the VR&E programs as cited in 
reports by the Government Accountability Office (GAO) is exceptionally 
high workloads for the limited number of staff. This hinders the 
staff's ability to effectively assist individual veterans with 
identifying employment opportunities. Without sufficient staffing, the 
success of VR&E programs becomes extremely challenging, especially due 
to the returning veterans from Iraq and Afghanistan and their more 
complex cases. VR&E also needs relevant data concerning the number of 
veterans who are applying for disability benefits, so they can project 
future workload and hire staff accordingly.
    The American Legion recommends Congress amend the VR&E program to 
allow participants to qualify for Chapter 33 benefits while receiving 
case management and other services that lead to gainful employment. The 
American Legion believes amending this program is the fair and 
equitable way of honoring our most vulnerable veterans, who are seeking 
financial independence after being injured while serving our country.
    No VA mission is more important at this time in our history--
especially now when our country is at war and in financial crisis--than 
enabling our injured soldiers, sailors, and airmen and other veterans 
with disabilities to have a seamless transition from military service 
to a successful rehabilitation and on to suitable employment after 
service to our Nation. The success of the VR&E program will 
significantly be measured by these veterans' ability to obtain gainful 
employment and achieve a high quality of life. VR&E's services are more 
critical than ever based upon more than 33,000 servicemembers being 
injured in Iraq and Afghanistan since 2001. To meet America's 
obligation to these wounded veterans, VA leadership must continue to 
focus on marked improvements in case management, vocational counseling, 
and most importantly, job placement.

                               __________

    Madame Chairwoman and distinguished Members of the Subcommittee, 
thank you for the opportunity to submit the views of The American 
Legion regarding the Department of Veterans Affairs (VA) Vocational 
Rehabilitation and Education (VR&E) programs.

VOCATIONAL REHABILITATION AND EMPLOYMENT SERVICE (VR&E)
    Since the 1940s, VA has provided vocational rehabilitation 
assistance to veterans with disabilities incurred during military 
service. The Veterans Rehabilitation and Education amendments 1980, 
Public Law (PL) 96-466, changed the emphasis of services from training, 
aimed at improving the employability of disabled veterans, to helping 
veterans obtain and maintain suitable employment and achieve maximum 
independence in daily living. Vocational Rehabilitation and Employment 
(VR&E) program employment goals are accomplished through training and 
rehabilitation programs authorized under Chapter 31 of title 38, U.S. 
Code. Title 38 provides a 12-year period of eligibility after the 
veteran is discharged or first notified of a service-connected 
disability rating. To be entitled to VR&E services, veterans must have 
at least a 20 percent service connected disability rating and an 
employment handicap or less than a 20 percent disability and a serious 
employment handicap.
    The mission of the VR&E program is to help qualified, service-
disabled veterans achieve independence in daily living and, to the 
maximum extent feasible, obtain and maintain suitable employment. The 
American Legion fully supports these goals. As a Nation at war, there 
continues to be an increasing need for VR&E services to assist 
Operations Iraqi Freedom and Enduring Freedom veterans in reintegrating 
into independent living, achieving the highest possible quality of 
life, and securing meaningful employment.
    The success of the rehabilitation of disabled veterans is 
determined by the coordinated efforts of every Federal agency 
(Department of Defense, VA, Department of Labor, Office of Personnel 
Management, Department of Housing and Urban Development, etc.) involved 
in the seamless transition from the battlefield to the civilian 
workplace. Timely access to quality health care services, favorable 
physical rehabilitation, vocational training, and job placement play a 
critical role in the ``seamless transition'' of each veteran, as well 
as his or her family.
    Administration of VR&E and its programs is a responsibility of the 
Veterans Benefits Administration (VBA). Providing effective employment 
programs through VR&E must become a priority. Until recently, VR&E's 
primary focus has been providing veterans with skills training, rather 
than providing assistance in obtaining meaningful employment. Clearly, 
any employability plan that doesn't achieve the ultimate objective--a 
job--is falling short of actually helping those veterans seeking 
assistance in transitioning into the civilian workforce. Eligible 
veterans who are enrolled into the education and training programs 
receive a monthly allowance; those veterans who use VR&E for assistance 
with immediate employment do not. This policy leaves out needed 
assistance for veterans looking for immediate employment, which could 
lead that veteran into a different track and miss out on early entry 
into the civilian workforce.
    Another problem hindering the effectiveness of the VR&E program as 
cited in reports by the Government Accountability Office (GAO) is 
exceptionally high workloads for the limited number of staff. This 
hinders the staff's ability to effectively assist individual veterans 
with identifying employment opportunities. A recent GAO report noted 
that 54 percent of all 57 regional offices stated they have fewer 
counselors than they need and 40 percent said they have fewer 
employment coordinators than they need. As in the past, achieving ample 
staffing in VR&E is a major concern. Without sufficient staffing, the 
success of VR&E programs becomes extremely challenging, especially due 
to the returning veterans from Iraq and Afghanistan with more complex 
cases. VR&E also needs relevant data concerning the number of veterans 
who are applying for disability benefits, so they can project future 
workload and hire staff accordingly.
    Vocational counseling also plays a vital role in identifying 
barriers to employment and matching veterans' transferable job skills 
with those career opportunities available for fully qualified 
candidates. Becoming fully qualified becomes the next logical objective 
toward successful transition. Veterans' preference should play a large 
role in vocational counseling as well. The Federal Government has 
scores of employment opportunities that educated, well-trained, and 
motivated veterans can fill given a fair and equitable chance to 
compete. Working together, all Federal agencies should identify those 
vocational fields, especially those with high turnover rates, suitable 
for VR&E applicants. Career fields like information technology, claims 
adjudications, and debt collection offer employment opportunities and 
challenges for career-oriented applicants that also create career 
opportunities outside the Federal Government.

INTERAGENCY COOPERATION BETWEEN DOL-VETS AND VA
    It is our experience that the interagency collaboration and 
communication between the VR&E program, and the Department of Labor 
(DOL) Veterans Employment and Training Service (VETS) has been lacking 
the last several years; however, this relationship is steadily 
improving.
    In recent years, many States did not refer veterans from the VR&E 
program to VETS for assistance in obtaining employment. Veterans with 
high-tech skills and advanced education were referred to expensive 
commercial placement agencies that do not specialize in employment 
assistance for veterans, and difficult to place veterans were sent to 
VETS. Therefore, to assist in the correction of these deficiencies a 
memorandum of understanding (MOU) between VA and DOL was developed and 
signed in October 2005 stating that each agency would work for the 
smooth transition of veterans to the civilian workforce. This agreement 
is authorized in accordance with section 4102A(b)(3), title 38, U.S.C.
    In discussions with numerous VETS representatives across the 
country, The American Legion is hearing a variety of opinions on the 
current implementation process and progress of the MOU. Some States 
report a total lack of communication and information sharing, while 
other States enjoy a strong relationship between the local VETS and 
VR&E offices.
    A majority of VETS representatives contacted spoke of a markedly 
improved level of communication between the 2 agencies, along with 
other positive developments such as improvement in local data sharing 
and combined training on the local and national levels. In addition, 
national representatives from the 2 agencies are currently reporting a 
close and cooperative relationship, and the expectation is this 
relationship will continue to improve over time.
    In some States, however, it has been reported that the MOU has not 
led to an improvement in cooperation between the 2 agencies. Some 
problems cited were a difference in the perceptions of the primary 
mission, differing education levels of VA case managers and DVOPs and 
LVERs, and the unenforceable mandate for the 2 agencies to communicate 
and cooperate on a local level. DVOPs and LVERs are controlled by each 
individual State and have their own requirements making a State and 
Federal program difficult to synchronize.
    While poor coordination between some VR&E counselors and their VETS 
counterparts has contributed to the shortfalls of the VR&E program, a 
number of States have begun to improve communications. A majority of 
VETS representatives have commended their VR&E counterparts for their 
willingness to ensure the successful implementation of the MOU that is 
designed to improve rehabilitation, training and employment outcomes 
for disabled veterans.

REHABILITATION AND EMPLOYMENT OUTCOMES

                                   Numbers of Rehabilitated/Employed Veterans
----------------------------------------------------------------------------------------------------------------
                                                                                         Veterans successfully
                          Year                               Veterans successfully      employed with suitable
                                                                 rehabilitated                   jobs
----------------------------------------------------------------------------------------------------------------
FY 2003                                                               9,549                      17,525
----------------------------------------------------------------------------------------------------------------
FY 2004                                                              11,129                       8,392
----------------------------------------------------------------------------------------------------------------
FY 2005                                                              12,013                       9,279
----------------------------------------------------------------------------------------------------------------
FY 2007                                                              11,008                       8,252
----------------------------------------------------------------------------------------------------------------
FY 2008                                                              11,066                       8,831
----------------------------------------------------------------------------------------------------------------

    In fiscal year (FY) 2008, VR&E funding was $770 million, and the 
program served 97,116 veterans. The average annual salary for the 8,831 
veterans rehabilitated in suitable employment was $32,359. Please note, 
the veterans average annual salary before entering VR&E was $5,641.
POST 9/11 GI BILL
    The American Legion recommends Congress amend the VR&E program to 
allow participants to qualify for Chapter 33 benefits while receiving 
case management and other services that lead to gainful employment. The 
American Legion believes amending this program is the fair and 
equitable way of honoring our most vulnerable veterans, who are seeking 
financial independence after being injured while serving this country.

CONCLUSION
    No VA mission is more important at this time in history--especially 
now when the country is at war and in financial crisis--than enabling 
injured soldiers, sailors, and airmen and other veterans with 
disabilities to have a seamless transition from military service to a 
successful rehabilitation and on to suitable employment after service 
to the Nation. The success of the VR&E program will significantly be 
measured by these veterans' ability to obtain gainful employment and 
achieve a high quality of life. To meet America's obligation to these 
service-connected veterans, VA leadership must continue to focus on 
marked improvements in case management, vocational counseling, and most 
importantly, job placement.
    VR&E's services are more critical than ever based upon more than 
33,000 servicemembers being injured in Iraq and Afghanistan since 2001. 
The American Legion strongly supports VR&E programs and is committed to 
working with VA and other Federal agencies to ensure that America's 
wounded veterans are provided with the highest level of service and 
employment assistance.
    Again, thank you for the opportunity to submit the opinion of The 
American Legion on this issue.

                                 <F-dash>
  Prepared Statement of Justin Brown, Legislative Associate, National 
   Legislative Service, Veterans of Foreign Wars of the United States

MADAM CHAIRWOMAN AND MEMBERS OF THIS SUBCOMMITTEE:

    On behalf of the 2.2 million Members of the Veterans of Foreign 
Wars of the United States and our Auxiliaries, I would like to thank 
this Committee for the opportunity to testify. The issues under 
consideration today are of great importance to our Members and the 
entire veteran population.
    During this economic recession the number of unemployed veterans 
has increased to nearly 1 million as of February 2009. That is an 
increase of nearly 160,000 veterans since we last testified before this 
Subcommittee. There are twice as many unemployed veterans as there were 
1 year ago and there are more unemployed Iraq and Afghanistan veterans 
as there are men and women currently serving in Iraq. Of these 1 
million veterans we know that two-thirds of them, or 666,000, are 
ineligible for any educational programs that are available--Chapter 30, 
Chapter 31, or Chapter 33. What we don't know is how many of these 
veterans are unemployed due to an injury they received in service to 
our Nation. Nonetheless, we do know that there are veterans who are 
injured and who are not receiving any rehabilitation because of a 12 
year delimiting date tied to the VR&E program.
    There is no delimiting date on a service connected injury and at no 
point does that injury stop being related to or caused by your service 
to our Nation. Veterans' service related injuries tend to progressively 
worsen over time and many injuries won't even fully disable a veteran 
until long after 12 years. Veterans did not ask to become disabled and 
we as a Nation need to do more to help service disabled veterans 
rehabilitate for the entirety of their employable lives.

                          VR&E Brief Overview

    The sole purpose of the Department of Veterans Affair's Veterans 
Benefits Administration's Vocational Rehabilitation and Employment 
(VR&E), as authorized under Chapter 31 of 38 USC, is to provide 
comprehensive services to address the employment handicaps of service-
connected disabled veterans in an effort to achieve maximum 
independence in daily living, and to obtain and maintain gainful 
employment. Furthermore, VR&E provides services to severely disabled 
veterans with an eye toward helping them achieve the highest quality of 
life possible, including future employment when feasible.
    In 1918, Congress passed the Vocational Rehabilitation Act to 
increase the probability for a seamless transition into suitable 
employment that is consistent with a qualifying veteran's competencies 
and interests through successful rehabilitation. This program was 
administered by the Federal Board for Vocational Education. On August 
24, 1921, VR&E was transferred to the soon-to-be created Department of 
Veterans Affairs. Legislation would later expand VR&E, specifying that 
any eligible veteran may receive up to 4 years of training specifically 
directed to rehabilitation and the restoration of employability.
    Currently, to be eligible for VR&E, the veteran must have been 
discharged under circumstances other than dishonorable; have a 
disability rating or memo rating of 10 percent or more, which was 
incurred in or aggravated by such service for which a pension is 
payable under the laws administered by the VA or would be but for the 
receipt of retirement pay; and be in need of vocational rehabilitation 
to overcome employment handicaps caused by such service-connected 
disability. VR&E provides for 48 months of entitlement and the program 
may be utilized within 12 years from the date of initial VA disability 
rating notification, with an exception for those with a serious 
employment handicap.
    The process begins when a case manager is assigned to each 
recipient of VR&E services. The case manager works with a Vocational 
Rehabilitation Counselor (VRC) to determine the extent of a disabled 
veteran's employment handicap(s). A written rehabilitation plan is then 
developed by the VA and the veteran, describing the goal of the VR&E 
program and the means through which the goal will be achieved. The VRC 
and the case manager then help the veteran for up to 18 months through 
on-going case management to achieve the goals of the agreed upon 
written plan for employment or independent living. Services provided 
include, but are not limited to: referrals for medical and dental 
services, coordination of training allowances, education counseling for 
children and spouses of veterans who have a permanent and total 
service-connected disability, testing for aptitude and tutorial 
assistance.
    Under the current VR&E program, a veteran whose eligibility and 
entitlement have been established must not only complete the 
rehabilitation plan, but he or she will also be tracked to attainment 
of suitable employment based on the plan's goals. This is called the 
``Five-Track Service Delivery System.'' The tracks are: Re-employment; 
Rapid Access to Employment; Self-Employment; Employment through Long-
Term Services; or Independent Living Services.
    Briefly, the Re-employment Track helps veterans and Members of the 
National Guard and the Reserves return to jobs held prior to active 
duty. The Rapid Access to Employment Track emphasizes the goal of 
immediate employment and is available to those who already have the 
skills to compete in the job market in appropriate occupations. Self-
Employment is a track for veterans who have limited access to 
traditional employment and need flexible work schedules and a more 
accommodating work environment because of their disabling conditions or 
other special circumstances. Under the Employment through Long-Term 
Services track, VR&E assists veterans who need specialized training or 
education to obtain and maintain suitable employment. Finally, the 
Independent Living Services Track is for veterans who may not be able 
to work immediately and need additional rehabilitation to enable them 
to live more independently.
    From its conception, VR&E has been adapted to better reflect 
veterans' current circumstances. For example, the cap on the number of 
veterans eligible for the Independent Living track has been modestly 
increased. What defines ``successful rehabilitation'' has also been 
restructured. Before 1980, completion of a training program for 
suitable employment and not actual job placement was considered a 
success. This was identified as a problem area, and improved. 
Furthermore, in partnership with the Department of Labor (DOL), 
employers, and other relevant Federal agencies, efforts have been made 
by the VA to increase employment opportunities for program 
participants. Finally, outreach and early intervention efforts have 
been expanded and integrated into the U.S. Army Wounded Warrior Program 
(AW2) and Warrior Transition Units (WTU) command.
    The Veterans of Foreign Wars has identified 5 primary areas of 
concern. We believe that if these recommendations were adopted, the 
VR&E program would have better results and increased investment for 
veterans and our Government.

    1.  The Delimiting Date for VR&E Needs to be Removed
    2.  VR&E's Educational Stipend Needs Parity in Comparison to 
Chapter 33
    3.  For Many Disabled Veterans with Dependents VR&E Education 
Tracks are Insufficient
    4.  VR&E Performance Metrics Need to be Revised to Emphasize Long-
term Success
    5.  VR&E Needs to Reduce Time from Enrollment to Start of Services

            The Delimiting Date for VR&E Needs to be Removed

    Currently, the delimiting date for VR&E is set to 12 years after 
separation from the military, or 12 years following the date a 
servicemember learns of their rating for a service connected 
disability. This fails to take into account the fact that many service 
related injuries will not hinder the veteran to the point of needing 
help or rehabilitation until many years following the injury.
    Eliminating VR&E's delimiting date would allow veterans to access 
the VR&E program on a needs basis for the entirety of their employable 
lives. Veterans would still have to be approved by VR&E as having an 
employment handicap resulting from their service connected disability 
and would still be subject to the total cap of services. However, 
dropping the arbitrary delimiting date would insure rehabilitation for 
veterans should their service connected disability negatively progress 
over time.
  VR&E's Educational Stipend Needs Parity in Comparison to Chapter 33
    With the passage of the new GI-Bill, the discrepancy in benefits 
between Chapter 31 and Chapter 33 may have the latent consequence of 
incentivizing chapter 33 even though a disabled veteran needs access to 
the additional rehabilitation benefits chapter 31 provides. For this 
reason the VFW strongly urges Congress to create a Chapter 31 
educational housing stipend that is in line with the Chapter 33's 
housing allowance; which is E-5, with dependents, basic allowance for 
housing (BAH) determined by the zip code of the educational institution 
of interest. This would offer our disabled veterans the best all-around 
program and would return the VR&E program to offering the best 
available overall services to rehabilitating veterans.

              For Many Disabled Veterans with Dependents 
                 VR&E Education Tracks are Insufficient

    For many veterans with dependents the VR&E educational track 
provides insufficient support. Veterans with dependents are the second 
largest group seeking assistance from VR&E and they are often those 
with the most pressing needs to secure meaningful long-term employment. 
There are many seriously disabled veterans that are unable to pursue 
all of their career options or goals due to the limited resources 
provided to disabled veterans with children and spouses. We must not 
forget that these veterans are utilizing VR&E because of a disability 
they incurred in service to our country. Unfortunately these heroes 
utilize VR&E's employment track at a rate higher than disabled veterans 
without dependents. The VFW believes this is likely due to the fact 
that immediate employment, while possibly not the best long-term 
rehabilitation outlook, immediately provides higher resources to the 
family that cannot afford long-term educational rehabilitation.
    The Veterans of Foreign Wars would like to see VR&E institute a 
program to help veterans with dependents while they receive training, 
rehabilitation and education. This could be achieved by establishing a 
sufficient allowance to assist with the cost-of-living and in some 
cases by providing childcare vouchers or stipends. Childcare is a 
substantial expense for many of these veterans. Without aid of some 
form, many disabled veterans will be unable to afford the costs 
associated with long-term educational rehabilitation.
    By assisting these veterans with these expenses, we can increase 
the likelihood they will enjoy long-term success and an increased 
quality of life. This will lead to decreased usage of VA services and 
is a worthwhile proactive approach.

            VR&E Performance Metrics Need to be Revised to 
                      Emphasize Long-term Success

    Currently VR&E measures the ``rehabilitation rate'' as the number 
of veterans with disabilities that achieve their VR&E goals and are 
declared rehabilitated compared to the number that discontinue or leave 
the program before achieving these goals. ``Rehabilitated'' within the 
employment track means that a veteran has been gainfully employed for a 
period of 60 days following any VR&E services they received. This form 
of performance measure could have the latent consequence of 
incentivizing short-term employment solutions over long-term 
strategies.
    The VFW would like to see all VR&E performance metrics changed to 
reflect the employable future of the veteran. At anytime if a veteran 
becomes unemployed, during his employable future, he would be counted 
as such. A veteran's success in completing a rehabilitation program 
followed by his employment does not necessarily mean he has been 
rehabilitated for the course of his employable future. Changing the 
metrics to reflect a career long standing will incentivize long-term 
approaches to VR&E programs. If an injury is aggravated following 
rehabilitation then a servicemember may need to additional 
rehabilitation to make him employable.

     VR&E Needs to Reduce Time from Enrollment to Start of Services

    The current VR&E program can take up to several months to begin a 
program of training. This occurs primarily because VR&E is required to 
validate that entitlement is present. In a recent conversation with 
VR&E's central office, the VFW learned that it is extraordinarily rare 
that entitlement is not found for the VR&E program. If a veteran has 
proven eligibility for VR&E, the VFW believes entitlement ought to be 
assumed thereby minimizing veterans time in gaining access to VR&E 
programs.
    The Vocational Rehabilitation Counselor makes entitlement 
determinations on the basis of whether the veteran's employment 
problems have been caused by

    <bullet>  The veteran's service connected disabilities
    <bullet>  The veteran's non service-connected disabilities
    <bullet>  Deficiencies in education and training
    <bullet>  Negative attitudes about people with disabilities
    <bullet>  The impact of alcoholism and/or drug abuse
    <bullet>  Consistency with abilities, aptitudes, and interests
    <bullet>  Other pertinent factors

    If entitlement were assumed, veterans would still have to be 
considered eligible. To be considered eligible for VR&E services, a 
veteran must

    <bullet>  Have received, or will receive, a discharge under 
conditions other than dishonorable;
    <bullet>  Have served on or after September 16, 1940;
    <bullet>  Have a service-connected disability employment handicap 
rating of at least 20 percent or a serious employment handicap rating 
of 10 percent;
    <bullet>  Need vocational rehabilitation to overcome an employment 
handicap; and
    <bullet>  Submit a completed application for VR&E services on VA 
Form 28-1900

    In conclusion the Veterans of Foreign Wars believes that VR&E is 
one of the best tools disabled veterans have. We hope to see it 
upgraded to face the unique challenges of today's veterans during these 
tough economic times. The cost to our disabled veterans far exceeds the 
recompense our Nation provides them as these injuries drastically 
reduce their quality of life. However, we must not forget disability 
does not just affect the soldier or the veteran. Families and children 
pay a price as well and it is our responsibility to offer these 
veterans a robust, fair, rehabilitation program for their employable 
future.
    Madam Chairwoman, this concludes my testimony and I will be pleased 
to respond to any questions you or the Members of this Subcommittee may 
have. Thank you.

                                 <F-dash>
Prepared Statement of Charles S. Ciccolella, Senior Fellow for Economic 
                  Empowerment, Wounded Warrior Project

    Chairwoman Herseth Sandlin, Ranking Member Boozman and Members of 
the Subcommittee:

    Thank you for inviting Wounded Warrior Project (WWP) today to 
address the Subcommittee about the Department of Veterans' Affairs 
Vocational Rehabilitation and Employment (VR&E) program. Our 
organization has staff throughout the Nation assisting wounded warriors 
on a daily basis. This direct contact gives Wounded Warrior Project a 
unique perspective on the needs and obstacles faced by wounded warriors 
as they reintegrate back into their homes, communities, educational 
opportunities and the civilian workplace. Our goal is to ensure that 
this is the most successful, well-adjusted generation of veterans in 
our Nation's history. That perspective provides the framework for our 
testimony this morning.
    Because we are so regularly and intimately involved with the 
rehabilitation challenges of our alumni, we have created within the 
Wounded Warrior Project team a no-nonsense approach to the programs and 
services we offer. Stated simply, we build programs that work, we 
measure their outcomes, and we continually refine, adjust, and 
recalibrate as needed to ensure the success of our wounded warrior 
participants. This, then, is the institutional lens by which we measure 
all programs designed to assist disabled veterans. Does the program 
work, and can one prove that it works by the measurable successes of 
those the program seeks to help?
    Wounded Warrior Project believes the Vocational Rehabilitation and 
Employment program should be one of VA's ``crown jewels.'' Vocational 
rehabilitation and employment assistance is a critically needed and 
extremely valuable tool for disabled veterans seeking to adapt to what 
we call the ``new normal'' of their daily living. Through education, 
counseling, job-skills training, and coaching, the program should offer 
all disabled veterans a uniquely tailored rehabilitation plan to enable 
them to return to healthy, happy, and productive civilian lives.
    Before discussing the VR&E program, we believe a clear distinction 
should be made between recipients of new G.I. Bill benefits and 
enrollees in the VR&E program. Specifically, every veteran is entitled 
to new G.I. Bill benefits by virtue of their service. However, every 
disabled veteran should also be entitled to participate in the VR&E 
program by virtue of their disability. The VR&E program is designed to 
accommodate specifically the compelling physical, emotional, and 
psychological needs of disabled veterans as they transition back into 
civilian life. It is in our Nation's best interest to help make that 
transition in as smooth and rewarding a manner as possible. Disabled 
veterans should have full access to both their G.I. Bill benefits and 
their VR&E benefits.
    As noted in a January 2009 GAO report, the VR&E program has made 
progress since a 2004 VA task force made recommendations for improving 
the program, but much improvement is still needed. We do not attribute 
this to any failure on behalf of the dedicated men and women who 
administer the program but rather to what appears to be the relatively 
low priority VA places on VR&E and weaknesses in the current program.
    For example, our field teams report current subsistence levels 
under the program are inadequate, discourage individuals from 
enrolling, and may contribute to incompletion rates. This may become 
even more problematic with the implementation of the new G.I. Bill. 
Additionally, only very limited subsistence payments are made for 
enrollees in the reemployment track, the rapid employment track, and 
the self-employment track.
    Tutoring, counseling, and program support for enrollees-often 
critical to their success--varies significantly from community to 
community. Our field staff has also reported that, in some cases, VR&E 
counselors do not systematically monitor participants to document 
progress and provide program assistance when needed.
    Three other weaknesses in the program warrant comment. First, the 
program provides only limited temporary support payments for graduates 
as they move from active duty, through rehabilitation, into gainful 
civilian employment. Second, there are no long-term measurement 
mechanisms to quantify program success. Finally, enrollees are not 
reimbursed to cover expenses which can act as a significant impediment 
to program completion.
    Despite these limitations, VR&E's fundamental framework is sound 
and provides the basis for significantly improving VR&E. By enhancing 
critical aspects of VR&E while retaining the fundamental value of the 
Five-Track Employment Program, VR&E could become the showcase VA 
program our wounded warriors clearly deserve. Such a model should 
contain the following elements:
Increased Subsistence Payments and Reimbursed Expenses for VR&E 
        Participants
    The VR&E program currently pays veterans who receive education or 
training monthly subsistence payments. The rate is currently $541.05 
per month for a veteran without dependents who is attending full time 
in an institution of higher learning. The maximum monthly amount 
distributed to a veteran with 2 dependents is $761.18. That amount is, 
frankly, inadequate and may not be enough even when combined with 
disability compensation. We believe this contributes to high 
incompletion rates among VR&E participants because program 
participation is simply not affordable for them. More study is needed 
to determine what the proper rates should be. In our view, VR&E 
subsistence rates should be greater than those specified in the new 
G.I. bill. Like the new G.I. bill, subsistence rates should also be 
adjusted to reflect the local cost-of-living. Additionally, VR&E 
enrollees should be reimbursed for expenses which, if unreimbursed, 
would adversely affect the participant's ability to complete their 
education or training. Expenses like child care, commuting costs, 
resume preparation, and appropriate job-search attire would likely fall 
into this category.
    At present, enrollees in the first 3 tracks (reemployment, rapid 
employment, and self-employment tracks) of the Five-Track Employment 
Program generally do not receive any subsistence, although subsistence 
is occasionally paid for specific training programs associated with 
these tracks. Even when paid in the employment tracks, subsistence is 
only paid for the actual days in training. We believe VR&E should pay a 
full month of subsistence for every partial month the disabled veteran 
is enrolled in the first 4 tracks of the program.
Disabled Veterans Should Receive Both G.I. Bill and VR&E Benefits
    Veterans have earned their G.I. Bill benefits by virtue of their 
service, but disabled veterans have earned their VR&E enrollment by 
virtue of their disability. Wounded Warrior Project recommends allowing 
eligible veterans to use their VR&E benefits as well as their G.I. Bill 
benefits and permitting those combined benefits to remain available 
throughout the 12-year eligibility window which currently exists for 
both programs.
VR&E Outreach
    Many service-connected disabled veterans do not fully understand or 
are unaware of the value of the VR&E program. VA should be required to 
provide a VR&E briefing to all servicemembers prior to separation or 
retirement. This should be provided in cooperation with the Department 
of Labor, Transition Assistance Program (TAP) at all military 
installations, and especially with the military's warrior transition 
units and medical treatment facilities. The briefing should include a 
detailed discussion of VR&E programs, their benefits, and how the 
program compares to the new G.I. Bill. We also believe more service-
connected disabled veterans would apply to participate in VR&E if they 
had the advantage of a Memorandum Rating for their disability 
conditions prior to receiving these mandatory briefings.
    As part of their Transition Assistance Programs, servicemembers 
should be required to acknowledge, in writing, their receipt of the 
VR&E program briefing. Additionally, when the disabled veteran receives 
his or her initial disability rating and any time that disability 
rating changes, VA should be required to specifically inform the 
veteran about VR&E programs, their benefits, and how they compare to 
the G.I. bill. Disabled veterans should be required to acknowledge they 
understand the availability and benefits of the VR&E program in each of 
these instances.
Eligibility and Enrollment
    At present, veterans are eligible for enrollment in VR&E if they 
are at least 10 percent disabled. To be enrolled, veterans must be 
interviewed by a Vocational Rehabilitation Counselor who then makes a 
decision based on that evaluation of the veteran's disability, whether 
or not to enroll the veteran, and, in many cases, whether a veteran 
should or should not be placed into a particular track. Wounded Warrior 
Project is receiving a significant number of anecdotal reports that 
disabled veterans diagnosed with TBI, PTSD, and/or an injury at the 
lower end of the disability rating scale (in the 20-50 percent range) 
are being denied access to VR&E ostensibly because counselors may not 
think employment plans are feasible for them.
    Our field staff is also reporting that, possibly in response to a 
recent emphasis on the employment tracks, some disabled veterans 
applying for the education track are being denied entry into that track 
and are being required by their counselor to enter one of the 
employment tracks.
    The Five-Track Employment Program is a good program. Wounded 
Warrior Project believes that, with some enhancements, VR&E could be 
made to accommodate rehabilitation training and education for every 
disabled veteran regardless of the nature of the individual's 
disability. However, track choice should be left to the veteran except 
in extreme cases. The ability to choose how to shape one's future is a 
vital element of any holistic rehabilitation strategy and lies at the 
heart of empowerment for a disabled veteran. Counselors should shape 
but should not decide the VR&E track for the veteran except in rare 
cases.
    Regarding the current enrollment process, Wounded Warrior Project 
recommends a study be conducted to determine why an increasing number 
of OEF/OIF veterans are apparently being denied entry into the program. 
The study should also examine the feasibility of streamlining the 
enrollment process entirely. If the VR&E program could feasibly be 
expanded to allow for universal eligibility and a universal enrollment 
opportunity for any disabled veteran, VR&E would come much closer to 
realizing its greatest potential.
Ongoing Tutoring, Counseling, and Monitoring
    Through its Training, Rehabilitation, and Advocacy Center--the 
``TRACK'' program--Wounded Warrior Project has developed a holistic 
rehabilitation program which seeks to ensure each wounded warrior's 
total body, mind, and spiritual fitness. We understand the vital role 
tutoring, counseling, and monitoring play in each enrollee's progress. 
Like our TRACK program, VR&E enrollees may experience academic or other 
problems and may fall behind or need extra help to avoid failure in 
their program. Others may choose to change tracks midway through the 
VR&E 5-track program. We appreciate that VR&E's goal is to provide each 
enrollee with continuous tutoring, counseling, and other assistance as 
needed. Yet, Wounded Warrior Project field staff report that VR&E 
counselors often have large caseloads or additional administrative 
duties which reduce the time available to provide the necessary ``hands 
on'' attention needed by some enrollees. Current counselor caseloads 
are averaging about 130 cases per counselor. Wounded Warrior Project 
believes caseloads for counselors must be reduced and, depending on the 
track, should not exceed 30-40 cases per counselor for moderate to 
severely disabled veterans. VA must ensure that adequate numbers of 
qualified employment coordinators and counselors are available to meet 
the total rehabilitation needs of participants.
Extended Subsistence Payments
    Veterans who successfully complete their VR&E education or training 
program should receive extended subsistence payments tailored to each 
track of the VR&E program. The VR&E program exists specifically to ease 
a wounded warrior's passage from active duty to gainful civilian 
employment. It is unrealistic to expect any VR&E enrollee to move from 
the VR&E education and training environment, particularly in the 
employment tracks, to stable civilian employment in one step. Extended 
subsistence payments tailored to the specific circumstances of each of 
the 5 tracks would significantly ease that process. These extended 
subsistence payments would help defray the uncertain costs associated 
with acclimating into the civilian workforce.
    Currently, the subsistence allowance ends 2 months after the 
completion of the VR&E education track and there are very limited or no 
subsistence payments for those in the 3 employment tracks. In an 
alternative model, monthly subsistence could be paid to all tracks 
during any period of enrollment and would extend for a period following 
the completion of each track. The extended subsistence period could 
vary by track. For example, extended subsistence payments for an 
individual in the self-employment track might extend for 6 months after 
course completion, whereas extended subsistence payments for those 
veterans returning to a previously held job, might only last for 1 
month or even not at all.
Continued Close Collaboration with the Department of Labor and an 
        Expanded VA Work-Study Program
    WWP applauds the close collaboration of the Departments of Labor/
VETS and VR&E in improving placement rates and employment outcomes for 
VR&E participants. This collaboration must continue, especially at the 
completion of the program. Much of this interface takes place through 
the workforce investment system in partnership with State Workforce 
Agencies (SWAs). VR&E job-ready veterans who are referred to and 
registered with the SWAs may receive intensive services and access to 
the Direct Employers Job Central Job Bank, which lists over \1/2\ 
million jobs in all State job boards. Additionally, VETS-funded veteran 
employment representatives assist service connected disabled veterans 
who take jobs soon after they leave service but later find themselves 
underemployed and who may not be aware that they are still eligible to 
get VR&E education and job training.
    The VA Work-Study Program currently allows VR&E enrollees to be 
paid for work with the VA while they are enrolled in a VR&E training 
program. This program should be expanded to enable VR&E enrollees to be 
paid for work within any Federal agency.
Remove Congressionally Mandated Limits on Independent Living (IL) 
        Programs
    Given the large number of Vietnam-era veterans now approaching 
their senior years and an unknown number of OEF/OIF veterans entering 
the system over the next few years, Congress should remove the current 
enrollment cap on VA's Independent Living Program. VA and the VSO 
community have sought removal of this cap several times during past 
congressional sessions. While the current program is operating under 
the cap, Vietnam-era veterans are approaching a threshold where more of 
these veterans may seek to enter the IL program. If this increase 
begins to approach the limits of the current cap, OEF/OIF veterans also 
seeking to enter the IL program may be denied entry. The cap is an 
artificial limit which serves no obvious purpose.
    The counselor caseload addressed earlier is also a serious concern 
as it relates to the unique needs of counselors supporting the IL 
program. A caseload of 1 to 130 is probably 3 to 4 times higher than it 
should be for a counselor serving an IL enrollee.
    Additionally, discussions with Wounded Warrior alumni and their 
families indicate that there is a growing population of young, severely 
disabled veterans who will never meet the stated criteria of enrollment 
in the VR&E IL program, namely, future employability. Andyet, the IL 
program could profoundly enhance the quality of life of these severely 
disabled veterans with little or no modification. Wounded Warrior 
Project recommends that VA examine this program to determine if 
enhanced quality of life rather than future employability should become 
a principal focus of the IL program.
Specialized Training to Enable Disabled Veterans to Become Certified 
        Rehabilitation Counselors (CRCs)
    The VR&E program is continually expanding its counseling staff to 
accommodate the unique needs of the newest generation of wounded 
warriors. VA may want to consider developing a specialized training 
program to enable disabled veterans to become CRCs. Also, preferential 
hiring should be offered by VR&E to these individuals to become 
permanent VR&E counselors.
Long-Term Outcomes Measurement
    Finally, we applaud the VR&E program's ongoing efforts to implement 
a long-term outcomes measurement system to quantify the program's 
success. As noted in the GAO report, however, more work is required. 
Wounded Warrior Project believes strongly in measurable outcomes to 
include 6-month, 1-year, and 2-year follow-up evaluations which focus 
on employment retention and earnings. VA should also implement lifelong 
longitudinal assessments to ensure the next generation of wounded 
warriors benefits from the lessons we are learning today. The 
individual stakes are high. In a very real sense, the lives of the men 
and women who have given so much to their country may depend on this 
program's effectiveness. Every effort must be made to ensure that the 
VR&E program is having the impact and results intended.
Conclusion
    The VR&E program can and should become one of the most successful 
and sought-after VA programs serving disabled veterans, one of the 
``crown jewels'' of VA. Creating the Five-Track Employment Program was 
the right idea. It offers the framework to accommodate the urgent 
rehabilitation needs not just of our current veterans, but of our 
future wounded warriors as well. However, the VR&E program must be 
improved. With the improvements WWP has recommended and commitment by 
all involved, VR&E can achieve its vital objectives.
    Wounded Warrior Project knows firsthand how successful these types 
of programs can truly be. Our TRACK, Warriors-to-Work, and Transition 
Training Academy are all designed to provide a complete range of 
education, counseling, vocational training, physical rehabilitation, 
and education through a holistic approach to the rehabilitation 
journey. Bi-directional feedback between our staff and our wounded 
warrior alumni is continuous, and program adjustments are made in real 
time. Most importantly, we establish benchmarks to measure the success 
of our programs. We believe the VR&E program has similar potential for 
success. We invite Members of the Committee to visit our TRACK program 
and the Wounded Warrior Project headquarters in Jacksonville, FL, at 
any time. <greek-l> (bell-a to prevent bad break) deg.
    Thank you for allowing Wounded Warrior Project to participate in 
this important hearing. I would be happy to respond to any questions.

                                 <F-dash>
 Prepared Statement of John M. McWilliam, Deputy Assistant Secretary, 
  Veterans' Employment and Training Service, U.S. Department of Labor

    Madam Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
Members of the Subcommittee:

    I am pleased to appear before you today to discuss the 
collaborative efforts and the partnership between the Department of 
Labor's (DOL) Veterans' Employment and Training Service (VETS) and the 
Department of Veterans Affairs' (VA) Office of Vocational 
Rehabilitation and Employment (VR&E) Service, and our joint efforts to 
serve our Nation's disabled veterans in need of VR&E services that lead 
to employment.
    In 2005 senior leadership from VETS and VR&E, including the 
Assistant Secretary for VETS and the Director for VR&E, met with the 
Subcommittee staff to discuss how the 2 agencies could better 
collaborate. As a result of that meeting, a new Memorandum of Agreement 
(MOA) between DOL and VA was executed and 3 work groups were 
established. Those 3 work groups have now been combined into a Joint 
Working Group (JWG).
    I am pleased to report that there is strong and continuing close 
collaboration between our 2 agencies. In FY 2008, we initiated monthly 
meetings with senior staff from both agencies. In addition, the JWG 
meets periodically and the most recent meeting was March 16-19, 2009.
    During FY 2008, VETS continued to focus on serving those disabled 
veterans who participate in the VR&E program, which is administered by 
the VA. The ultimate goal in this partnership is successful job 
placement and adjustment to employment for disabled veterans without 
duplication, fragmentation, or delay in the services provided.
    Interagency initiatives to increase the employment opportunities 
and placements for service-connected disabled veterans who participate 
in VR&E continue to improve. DOL/VETS and VA/VR&E have been 
implementing the updated MOA outlining the process--and 
responsibility--to work together to maximize the services both agencies 
provide on behalf of disabled veterans.
    Much of VETS' interface with the VR&E program is through the 
workforce investment system. Accordingly, VETS continues to work in 
partnership with its Jobs for Veterans State Grant (JVSG) recipients on 
behalf of VR&E job-ready veterans who are referred to and registered 
with the state workforce agencies (SWA) for intensive employment 
services.
Current status of DOL support to the VR&E program
    VETS is working toward ensuring a veterans' employment 
representative is outstationed at each of the 57 VR&E Regional Offices. 
Preferably, these offices will have a Disabled Veteran Outreach Program 
(DVOP) specialist or a Local Veterans' Employment Representative (LVER) 
outstationed at least half time. As identified in the following chart, 
there is currently either a DVOP specialist or LVER outstationed at 
least half time in 49 of their Regional Offices and 19 satellite 
offices. This equates to 52 FTE DVOP and 7\1/2\ FTE LVER for a total 
FTE of 59\1/2\ as shown in the following chart.
    Our standard is for one DVOP at every VR&E office. The State's JVSG 
5 Year Strategic Plan (FY 2010-2015) will require the States to 
outstation a DVOP specialist at each VR&E Regional Office. These 
individuals will assume the new title of Intensive Service Coordinators 
(ISC) to differentiate between the duties and responsibilities at a One 
Stop Career Center (DVOP/LVER) and a VR&E location (ISC). The table 
below shows the number of DVOPS/LVERS outstationed at VR&E sites.

----------------------------------------------------------------------------------------------------------------
            National Roll-up DVOP & LVER Staff Outstationed at VR&E Locations (As of March 26, 2009)
-----------------------------------------------------------------------------------------------------------------
                                                DVOP                                      LVER
----------------------------------------------------------------------------------------------------------------
                                                   # of FT    # of HT                        # of FT    # of HT
                               # of FT   # of HT    Pos @      Pos @     # of FT   # of HT    Pos @      Pos @
            State               Pos @     Pos @   Satellite  Satellite    Pos @     Pos @   Satellite  Satellite
                               VR&E RO   VR&E RO   or Sub-    or Sub-    VR&E RO   VR&E RO   or Sub-    or Sub-
                                                    Office     Office                         Office     Office
----------------------------------------------------------------------------------------------------------------
NAT TOTAL                        37         8         10          2         1         1          5          2
----------------------------------------------------------------------------------------------------------------
    Total FTE                                    52
                                                 7.5
                             -----------------------------------------------------------------------------------
                                                                     59.5
----------------------------------------------------------------------------------------------------------------

    The following table displays program results for FY's 2007 and 
2008. It compares the levels of referral, registration, and entry into 
employment for FY 2006, FY 2007, and FY 2008 for disabled veterans who 
have completed VR&E and have been referred to the State Workforce 
Agency for intensive employment services. Retention data has not been 
collected in the past. However, as a result of the pilot project 
retention is now being collected and will be available this year. These 
results indicate that from FY 2007 to FY 2008 that the number of 
veterans referred by VA increased by 8 percent and the number 
registered by the SWAs increased by 9 percent. We are pleased to report 
there was an increase of 18 percent in the average entry hourly wage.

                            Key Measures of VR&E Performance for FY 2007 and FY 2008
----------------------------------------------------------------------------------------------------------------
                                           Veterans        Veterans        Veterans
              Fiscal Year                Referred from   Registered by      Entered       Average  Entry Wage*
                                           VA to SWA          SWA         Employment
----------------------------------------------------------------------------------------------------------------
2006                                         6,658           5,801           3,189      $14.91 per hour
----------------------------------------------------------------------------------------------------------------
2007                                         6,520           5,549           3,662      $13.64 per hour
----------------------------------------------------------------------------------------------------------------
2008                                         7,060           6,068           3,516      $16.16 per hour
----------------------------------------------------------------------------------------------------------------

The VA/DOL Joint Working Group
    As mentioned earlier the Joint Working Group evolved from the 3 
work groups that were charted in the 2005 MOA. The goal of the JWG is 
to improve the quality of employment services and job placements for 
veterans enrolled in VR&E programs.
    DOL and VA leadership have taken an active role with the JWG. I 
have taken a personal interest in this issue and have been involved in 
meetings with the joint work groups. I take this cooperative effort 
very seriously.
    The 3 work groups were established to execute the requirements of 
the MOA. VETS' participants have included one individual from each of 
our 6 regions and at least 3 individuals from the national office. The 
3 work groups are organized to deal with the following subjects:

    <bullet>  Performance Measures for Assessment of Partnership 
Program Results;
    <bullet>  Curriculum Design; and
    <bullet>  Joint Data Collection, Analysis, and Reports.

    These groups have made significant accomplishments; they have:

    <bullet>  Facilitated a pilot program to identify and catalogue 
best practices from existing sites. This was a 1-year pilot that 
involved 8 locations.
    <bullet>  Developed roles and responsibilities for the major 
agencies involved in the VR&E process.
    <bullet>  Identified the major data collection issues to provide 
shared data collection between the VA and DOL.
    <bullet>  Identified the joint training requirements needed for 
this program.
    <bullet>  Published joint VA/DOL guidance. This technical 
assistance guidance document was published by both the VA and DOL in 
December 2008.

    As a result of the initiative to clearly identify roles and 
responsibilities, we have designated the outstationed DVOP position as 
an Intensive Service Coordinator. This designation, with new duty 
requirements, clearly differentiates the work required at VR&E sites 
from the roles of the DVOP at a One Stop Career Center.
    In December 2008, the end of the pilot program was marked by a 
webcast to all VR&E locations that initiated the implementation phase 
of this project.
    The next steps for the working group include:

    <bullet>  Development of joint training for all agencies. This is 
expected to be completed within 12 months.
    <bullet>  Conduct technical assistance visits to field locations to 
ensure the consistency of application of the new procedures.
    <bullet>  Resolve the shared data collection issues.

    Moving forward, the work groups will continue to monitor 
information, such as that presented above, and on the new data 
collection tool, and provides much needed technical assistance in order 
to increase entered employment rates.
    We are proud of our collaboration with theVA to increase employment 
opportunities for service-disabled veterans. That positive working 
relationship has also carried over into other initiatives and 
strengthened cooperation and coordination between VETS and our State 
workforce partners.
Participation on Joint Committees and Task Forces
    In addition to implementing the MOA, VETS works with VR&E and VA in 
other ways:

    <bullet>  A VETS' staff person is a Member of the Veterans Advisory 
Committee on Rehabilitation (VACOR). This Committee reviews and makes 
recommendations to the Secretary of Veterans Affairs on all 
rehabilitation issues including those affecting policies and programs 
administered by VR&E.
    <bullet>  A staff Member represents VETS on the VA Advisory 
Committee on Women Veterans. This Committee reviews and makes 
recommendations on issues specifically related to women veterans.
    <bullet>  A staff Member represents VETS on the VA Advisory 
Committee on Education. This Committee makes recommendations on issues 
related to education and training issues including the GI Bill.
    <bullet>  A staff Member represents VETS on the VA Advisory 
Committee on Homeless Veterans. This Committee makes recommendations on 
issues related to homeless veterans.
    <bullet>  The VA's Undersecretary for Benefits represents VA on 
DOL's Advisory Committee on Veterans Employment, Training, and Employer 
Outreach.
    <bullet>  VETS works closely with VR&E, as well as the Department 
of Defense, on issues involving transition of active duty 
servicemembers. VETS chairs a Transition Assistance Program Steering 
Committee with the Department of Defense, on which VR&E and other VA 
interests are represented.
    <bullet>  VETS also participated on the VR&E Task Force on 
Vocational Rehabilitation. This group developed the Five Track System 
currently being implemented at allVA Regional Offices.
Other collaborative efforts
    VETS senior staff participated in VR&E's last 4 National training 
conferences. A VETS' staff Member also presented VETS' programs at the 
VA Employment Coordinator conference in September 2008. VR&E staff also 
frequently participates in LVER and DVOP State training conferences. I 
have met with the VA's Under Secretary for Benefits, and can tell you 
that we share a commitment to improving employment outcomes for VR&E 
participants. In addition, VETS' senior staff now have a standing 
schedule for regular monthly meeting with the VR&E to discuss current 
issues of mutual concern and to enhance our joint partnership.
    While not specifically a VR&E or VETS initiative, staff from both 
agencies participated in the 34th Institute on Rehabilitation Issues 
(IRI) sponsored by the George Washington University Center for 
Rehabilitation Counseling Research and Education (CRCRE). The report 
When Johnny (or Jeannie) Comes Marching Home . . . and Back to Work was 
recently released and is available at http://www.gwu.edu/iri/
publications.htm. This monograph discusses linking Veterans Affairs and 
State Vocational Rehabilitation (VR) services for service men and 
women. The role played by VETS is also well delineated.
    This concludes my statement and I would be happy to respond to any 
questions.

                                 <F-dash>
      Prepared Statement of Ruth A. Fanning, Director, Vocational
            Rehabilitation and Employment Service, Veterans
      Benefits Administration, U.S. Department of Veterans Affairs

    Madam Chairwoman and Members of the Subcommittee, thank you for 
inviting me to appear before you today to discuss VA's Vocational 
Rehabilitation and Employment (VR&E) program. My testimony will provide 
an overview of the VR&E Program and the services we provide, a review 
of performance statistics, status of the relationship between VA and 
the Department of Labor (DOL), progress on the congressionally mandated 
20-year longitudinal study, and improvements to VR&E programs.
Overview of VR&E
    VR&E provides career and independent living services to Veterans 
and Servicemembers through 2 programs, Coming Home to Work (CHTW) and 
VetSuccess. Approximately 1,100 employees in 57 regional offices and 
over 100 out-based offices provide services to Servicemembers and 
Veterans with disabilities resulting from their military service, as 
well as to certain family Members. Servicemembers and Veterans are 
assisted in obtaining and maintaining suitable careers and living as 
independently as possible in their homes and communities. We provide 
interested Servicemembers and Veterans career and adjustment counseling 
during their transition from active duty and throughout their 
enrollment in VA sponsored education programs. Career counseling is 
available to children and spouses or widows of Veterans who have 
permanent and total service-connected disabilities or who died during 
military service or as a result of their service-connected disability. 
Additionally, children of certain Veterans who served in Vietnam or 
Korea are eligible for services under Chapter 18 to mitigate spina 
bifida disabilities and complete training leading to a suitable job.
Coming Home to Work
    VR&E is engaged in aggressive outreach through the Coming Home to 
Work (CHTW) program. This program provides expedited entry into the 
VR&E program and eases Servicemembers' transition into their 
educational and career paths. Outreach is conducted at Department of 
Defense (DoD) facilities, VA medical centers, and special homecoming 
events. CHTW was recently expanded to outreach to Guard and Reserve 
Members during Post Deployment Health Reassessment events and Yellow 
Ribbon functions. To make sure Servicemembers on medical hold have easy 
access to VR&E services, 13 full-time vocational rehabilitation 
counselors are stationed at 12 DoD military treatment facilities. VA 
has also appointed a CHTW coordinator in every regional office.
VetSuccess
    VR&E's VetSuccess program assists Veterans to prepare for and enter 
careers, and live as independently as possible at home in their 
communities. Counseling and employment staff assists Veterans to plan 
for their future careers, receive necessary training or education, and 
successfully compete for careers. For those Veterans whose disabilities 
are too severe to make employment feasible, VR&E provides a wide range 
of independent living services, including volunteer work placement, 
assistance using public transportation, life skills coaching, 
counseling, and other services.
    VR&E services are tailored to meet each individual Veteran's needs 
and are provided within 5 general ``tracks'' or types of services. 
These tracks include re-employment with a previous employer; rapid 
access to employment through job-readiness preparation and incidental 
training; self-employment, for those who wish to own their own 
businesses; employment through long-term services that include formal 
training and education programs leading to suitable employment; and 
services to maximize independence in daily living, for veterans who are 
currently unable to work or participate in other programs of vocational 
rehabilitation. Independent living services may also be provided 
concurrently with another track if needed to meet individual Veteran 
needs.
Program Statistics
    The typical VR&E participant is a male Army Veteran, 30 to 39 years 
old; the typical OEF/OIF participant is 20 to 29 years old. The most 
common period of service is the Gulf War Era, and the most typical 
disability results from an orthopedic injury. Currently 106,000 
Veterans and Servicemembers are receiving VR&E services. Over 71,522 
new applications were received for the VR&E program last year--over a 
13-percent increase from 2007.
    Veterans participating in the VR&E program are monitored based on 
case statuses. Case statuses correspond to the 5 tracks of services, 
with Rehabilitation to Employability (RTE) being the training or Long-
Term Services track; Job Ready (JR) including the job placement tracks 
of Reemployment, Rapid Access to Employment, and Self-Employment; and 
the Independent Living (IL) status corresponding to the IL track. 
Currently, the average time in training is 613 days, the average time 
for job placement services is 203 days, and the average time for 
independent living services is 310 days.
    Because services are tailored to Veterans' needs, there is 
crossover between the tracks; for example, a Veteran receiving services 
in a job placement track may require short-term training to obtain 
certifications in the IT industry prior to starting to look for work. 
Further, as Veterans' needs change, the types of services provided may 
also change.
    VR&E Service implemented a track selection identifier in its 
corporate database in 2007 and is working to develop corresponding 
reports to collect information about which tracks of services are most 
commonly used. Because rehabilitation planning is a dynamic process 
that changes based on Veteran needs, VR&E is currently evaluating 
system changes needed to also capture changes in programs of services 
in order to gain a full understanding of services received by 
individual Veterans.
    Despite the current economic environment, the rate of veterans 
getting jobs and achieving independent living goals has remained 
steady. This rehabilitation rate is measured as the percentage of 
Veterans completing their VR&E program who achieve their VR&E goals and 
are declared rehabilitated as compared with all veterans leaving the 
program, including those discontinuing the program prior to completing 
their VR&E plan of services. In FY 2008 and this fiscal year to date, 
the rehabilitation rate was 75 percent. This represents almost 8,800 
veterans reaching their career goals last year, with another 2,200 
reaching independent living goals.
    Average entry-level earnings were approximately $33,500 yearly, 
with 76 percent entering careers in the professional, managerial or 
technical fields. The average total program cost for a rehabilitated 
Veteran is $32,088. Costs include tuition, books, fees, equipment, 
subsistence allowance, and contracted services.
    About 14,000 of the over 28,000 OEF/OIF Veterans enrolled in the 
VR&E program are eligible for the new Post-9/11 GI Bill program. The 
new GI Bill program pays tuition, within program limits, and also 
provides a book stipend and housing allowance. As the new Post-9/11 GI 
Bill is implemented, VA will need to monitor participation to ensure 
that these programs are coordinated to best serve Veterans' success.
    As previously noted, VR&E is engaged in active outreach to inform 
Veterans about the various benefits available to them in order to 
assist Veterans to select VR&E or GI Bill programs best suited to their 
needs. Additionally, VR&E Service is studying recommendations made by 
various study groups that have proposed transition and incentive 
benefits for Veterans participating in programs of rehabilitation to 
help more Veterans complete VR&E programs and enter suitable careers.
VA and DOL Partnership
    VR&E has an active partnership with the Department of Labor's 
Veterans' Employment and Training Service (VETS) program, focused on 
advancing, improving, and expanding employment of Veterans with 
disabilities. Through this partnership, VR&E and VETS established a 
joint workgroup that designed, tested, and implemented a best practice 
team model. This model has improved working partnerships between VETS, 
VR&E, and State Workforce Agencies (SWA) around the country. A post 
implementation joint workgroup is in place to look for additional 
process improvements; changes needed due to evolving employment needs 
of Veterans with disabilities; and assistance needed by specific VETS, 
SWA, or VR&E sites to effectively collaborate to help Veterans become 
employed.
20-Year Longitudinal Study
    The longitudinal study mandated by Public Law 110-389, section 334, 
is expected to be awarded no later than September 30, 2009. A statement 
of objectives has been developed and an Integrated Project Team (IPT) 
is being established. The IPT's role is to expedite award of the 
contract to implement the longitudinal study. The contract includes 
logistical work necessary to set up the study, as well as data 
collection and analysis necessary to deliver the first report due to 
Congress in July 2011.
Improvements to the VR&E Program
Coming Home to Work
    As previously discussed, the CHTW program was expanded in February 
2008 to become VR&E's primary outreach and early intervention program. 
This expansion includes establishment of an outreach team in VBA 
Headquarters to ensure a continued focus with DoD in providing 
transition services to Servicemembers on medical hold, as well as 
ensuring continued outreach to all Veterans in need of assistance with 
career or independent living issues resulting from their disability 
conditions. To date, these collaboration efforts have resulted in an 
increase in Servicemembers and veterans applying for VR&E services, 
with over 13 percent more applications for VR&E services received last 
year.
Marketing of the VR&E Program
    In order to increase Servicemember and Veteran awareness of the 
services provided by the VR&E program, VR&E is launching a marketing 
campaign. This campaign will focus on branding the employment and 
independent living services provided through the VR&E program as 
``VetSuccess.'' VR&E Service redesigned its Veteran-focused Web site--
VetSuccess.gov. The VetSuccess.gov Web site provides Veterans with 
access to a variety of program and online tools to assist them in 
achieving their career goals.
    In partnership with Direct Employers and the National Association 
of State Workforce Agencies, the Job Central database of over 500,000 
jobs has been incorporated into the VetSuccess.gov Web site. In 
addition, VetSuccess.gov contains a specialized job bank for Veterans 
receiving Chapter 31 services. This feature allows employers to list 
job openings and search through the VetSuccess resume bank for 
candidates to match their staffing needs. This Web-based tool also 
provides resume support, career resources, program information, access 
to online applications for various VA benefit programs, and other 
resources. Future enhancements will focus on tools related to success 
in training programs, independent living services, and other resources 
to help Veterans make a successful transition to work and home.
    In addition, transparency of VR&E program results for stakeholders 
and the public has been expanded through development of additional 
outcome metrics that separate outcomes for employment and independent 
living successes.
Training
    Equipping VR&E staff to meet the needs of today's Veterans is vital 
to the success of the VR&E program. VR&E's training team is actively 
developing and deploying computer-based training job aids and programs. 
These tools are designed to provide desktop access to just-in-time work 
aids and training guides for every function of the counselor and 
employment specialist roles. In addition, national training for new 
counselors is provided, with over 150 counselors trained in 2008 and 
training planned in 2009 for over 100 additional counselors. A new-
manager training program was also launched in 2008, and a management 
enhancement program is being planned in 2009 to identify and begin to 
develop new leaders. VR&E is working with VA's Education, Development, 
and Training Office, to assess skills of professional staff. This 
information will be used to target training on topics most relevant to 
helping Veterans return to suitable careers and be as independent as 
possible.
    VR&E also works with the Council for the Certification of 
Rehabilitation Counselors (CCRC) to provide certified VR&E professional 
staff with continuing education credits. Support of the CCRC continuing 
education credit process encourages vocational rehabilitation 
professionals to maintain professional certifications and stay current 
in the rehabilitation field.
Conclusion
    VR&E has made significant program improvements in the past 4 years. 
The VR&E program is Veteran-focused, with services directly linked to 
the achievement of suitable careers and/or maximum independence at home 
and in the community. We continue to work aggressively to improve and 
market the program to our Veterans in order to assist more Veterans to 
achieve their rehabilitation and employment goals--particularly during 
the current economic downturn.
    Madam Chairwoman, this concludes my statement. I would be pleased 
to answer questions from you or any of the other Members of the 
Subcommittee.

                                 <F-dash>
               Statement of Patricia Nunez, Chairwoman, 
          Commission on Rehabilitation Counselor Certification

    Madam Chairwoman and Members of the Subcommittee, thank you for 
inviting me to present testimony related to the Vocational 
Rehabilitation and Employment (VR&E) Programs. Although the Commission 
on Rehabilitation Counselor Certification (CRCC) is unable to provide 
verbal testimony, we appreciate the opportunity to provide this written 
testimony. My testimony will highlight the continued need for qualified 
services through the Vocational Rehabilitation and Employment programs 
and how Certified Rehabilitation Counselors (CRCs) are uniquely 
qualified to provide such services to veterans.
CRCC Supports the Benefits of the VR&E Programs
    The mission of CRCC is to promote quality rehabilitation counseling 
services to persons with disabilities through the certification of 
rehabilitation counselors and to provide leadership in advocating for 
the rehabilitation counseling profession. Veterans who have a service-
connected disability are a growing population of individuals. They need 
services from those who are uniquely qualified to provide effective 
vocational rehabilitation services so that veterans may transition from 
military service to suitable employment or, for those who with severe 
disabilities who are unable to work, to independent living. We 
understand the VR&E to be conscientious about continually assessing its 
programs and services to ensure that veterans are receiving quality 
services from the point of initial evaluation to the end goal of 
suitable employment or independent living. Likewise, VR&E leadership is 
fully supportive of ensuring that the VR&E staff are equipped with the 
most up-to-date knowledge by providing and supporting their continual 
learning and development.
The Department of Veterans' Affairs is an Employer of Choice for CRCs
    Certified Rehabilitation Counselors are increasingly seeking 
employment within the VR&E programs, as these programs provide them 
with the ability to provide the full scope of rehabilitation counseling 
services for which they are trained. CRCs, through formal education and 
training, demonstrate that they have met the national standard for 
rehabilitation counseling and have the unique skills to assist 
individuals with disabilities as they seek re-employment with a 
previous employer, rapid access to employment through job-readiness 
preparation, self-employment, employment via long-term training and 
education, and services to maximize independence in daily living for 
those unable to work. The VA is also an employer of choice for CRCs due 
to the favorable pay and benefits offered by the Department. Benefits 
are inclusive of the commitment to supporting and providing continuing 
education for staff, which is also a requirement for those who are 
certified as CRCs.
    While the VA does employ CRCs, we recognize that the VA has 
established hiring requirements based on specific education and 
coursework, which some CRCs may not meet who are otherwise very highly 
qualified and skilled in providing services offered by VR&E. Other 
practice settings are experiencing a shortage of qualified staff and 
are in a position of re-examining hiring standards as a result. We 
would urge the VA, and any other practice setting experiencing the same 
shortage of qualified staff, to maintain high standards by considering 
the many qualified CRCs who may not meet the exacting educational 
standards currently in place.
Benefits for Veterans
    The VR&E's commitment to quality services, and thus a benefit for 
the veterans they serve, is certainly highlighted in their continual 
program assessment and commitment to continued training and education 
for staff. CRCC likewise supports these aspects by requiring that CRCs 
maintain their certification through a program of continuing education 
or by re-examination. CRCs are uniquely qualified to provide the full 
range of services provided by VR&E including:

    <bullet>  comprehensive rehabilitation evaluation to determine 
abilities, skills, interests, and needs
    <bullet>  vocational counseling and rehabilitation planning
    <bullet>  employment services such as job-seeking skills, resume 
development, and other work readiness assistance
    <bullet>  assistance finding and keeping a job, including the use 
of special employer incentives
    <bullet>  if needed, training such as On the Job Training (OJT), 
apprenticeships, and non-paid work experiences
    <bullet>  if needed, post-secondary training at a college, 
vocational, technical or business school
    <bullet>  supportive rehabilitation services including case 
management, counseling, and referral
    <bullet>  independent living services

Concluding Remarks
    In anticipation of an increasing demand for services for the many 
deserving veterans, CRCC fully supports the continuing need for the 
VR&E programs, their continued development and advancement, and the 
advancement of hiring standards to recognize CRCs. The population of 
veterans is not only increasing but the severity of disabilities is 
also increasing. It is important that quality services be provided by 
those who are uniquely qualified to provide them--Certified 
Rehabilitation Counselors.
    Madam Chairwoman, this concludes my written testimony. I would be 
pleased to respond to questions from you or any of the other Members of 
the Subcommittee.

                   MATERIAL SUBMITTED FOR THE RECORD
                 Wounded Marines: School Didn't Deliver
                    By Gidget Fuentes--Staff writer
                Posted: Monday Mar 9, 2009 19:02:10 EDT
    http://www.navytimes.com/news/2009/03/marine_schoolsuit_030609w/

    SAN DIEGO--A film-training and job-placement program created for 
wounded Marines and corpsmen by a foundation with Hollywood connections 
looked like a sweet deal when the first class graduated last year.
    But some participants say Wounded Marine Careers Foundation Inc. 
fell short on its promise of a free, 10-week training program with 
guaranteed employment and Membership in a key Hollywood union.
    Instead, some claim the private, nonprofit foundation charged the 
Department of Veterans Affairs for $88,000 in vocational rehabilitation 
benefits for some students, but didn't deliver on a variety of 
promises.
    Now, one former Marine has filed a nearly $300,000 civil suit 
against the group, and some graduates are weighing their options.
Giving something back
    Wounded Marine Careers Foundation was established in 2007 by Emmy 
award-winning filmmaker Kevin Lombard and his wife, Judith Paixao, to 
teach filmmaking skills--including photography, editing and audio--to 
disabled veterans, with costs expected to be covered by donations and 
other fundraising. The goal ``was to do a seamless transition for them 
into the workforce,'' Paixao said.
    The group signed up a blue-chip roster of trustees, including 2 
former commandants, retired Generals P.X. Kelley and James L. Jones, 
the latter now national security adviser to the Obama Administration. 
The foundation transformed a studio warehouse building in San Diego 
into a well-equipped school and graduated 19 students in the first 
class.
    ``I wanted to give back to these guys,'' said Lombard, whose father 
was a Marine and who has spent 38 years as a cinematographer, director 
and producer.
    In a Feb. 19 interview, Lombard and Paixao said they initially 
believed donations would be enough to cover the training costs for the 
students.
    ``We didn't think that a wounded veteran would have to pay for a 
wounded warrior program,'' Lombard said. ``I thought, being in the 
motion picture industry for 30 years . . . once people found out about 
this, we'd be funded. To me, it seemed like making a small-budget 
independent film.''
    But they didn't realize how tough it would be to get $2 million in 
donations, the amount Lombard estimates is needed annually to run the 
training center for the 3-year ``pilot'' program.
    ``The equipment is expensive, and the personnel who teach you to 
learn on the equipment is expensive,'' Lombard said. ``The technology 
is changing so quickly, you've got to be able to keep up with them.''
    Lombard said he didn't know about the VA program until one of the 
students in the first class mentioned it. The Vocational Rehabilitation 
and Employment Service covers tuition, fees, books, supplies and 
equipment for eligible service-disabled veterans and provides a monthly 
stipend for temporary housing. Benefit amounts vary case by case, and 
the VA pays the approved school or training program directly.
    The foundation applied to become a certified training center, and 
the VA reviewed and approved the course curriculum, budget, programs, 
faculty and the facility.
Suspicions and questions
    Former Lance Cpl. Brent Callender was sold on the program when he 
first heard about it from Paixao and Lombard, who visited him as he 
recuperated at Camp Pendleton.
    ``They pitched this idea to us as a gift to us, that they would be 
using private funding,'' said Callender, 23, a former combat engineer 
who suffered extensive injuries in Iraq from a roadside bomb. ``I was 
like, `OK, that sounds like a good idea.' I just wanted to work in TV 
and film.''
    When the course began, an employee asked students if they would use 
vocational rehabilitation benefits, and distributed forms ``just in 
case we needed it,'' Callender said. He signed the form as part of the 
larger enrollment process, but believed donations would cover the 
costs, he said.
    Program brochures said semesters cost $10,000 for each student. 
Several people associated with the foundation questioned the use of VA 
benefits, including cinematographer Levie Isaacks, a former Army 
infantry platoon commander and Vietnam veteran, who helped teach the 
first class.
    ``To watch these guys learn the creative process, they just come 
alive. These guys were living in hospitals, they were isolated,'' 
Isaacks said. ``It's just a question of the money.''
    Isaacks, who received $27,500 for teaching the first class, was 
furious that students had ``signed over all their rehab benefits.'' He 
said he's taught courses that cost $1,500 a week, but ``$88,000, I'll 
tell you, is just outrageous.''
    Isaacks said he complained in a letter to the VA but has not 
received any response.
VA benefits add up
    In 2007, the VA approved the foundation and later recertified the 
school for the current class that began in January, said Tristan 
Heaton, a VA spokesman in San Diego.
    According to VA records, the foundation has received $1,223,808 in 
benefits so far. The VA paid the foundation $88,550 for tuition costs 
for each of 8 students among the 19 in the first class and $64,426 for 
each of 8 students in the current class, Heaton said.
    Neither the VA nor the foundation has explained how that figure was 
determined, or what changed to drive the price down by $24,000 per 
student.
    It remains unclear whether this represents the only VA rehab 
benefits available to the students. Each case is tailored to the 
veteran, Heaton said, but he did not elaborate on whether available 
benefits are capped at a certain amount.
    Paixao said a VA counselor visits each Friday and meets with 
beneficiaries. She said veterans are not forced into using their VA 
benefits.
    ``Many of them do use their own benefits for the program,'' she 
said. ``It's completely elective.''
    Donations cover other students' tuition, as was the case for the 
first group, where about half of participants did not apply for VA 
benefits.
    Lombard said the couple put up most of their own money to help 
start the San Diego center. Paixao said they just received their first 
paychecks in mid-February, but would not disclose the amount.
    The foundation received some healthy donations--the couple would 
not specify those amounts, either--but most donors have given a few 
hundred dollars at most, Paixao said. Times have seemed ``tremendously 
bleak,'' she said.
    But former Cpl. Joshua Frey, a graduate of the inaugural class, 
isn't feeling sorry for the foundation. Eager to begin a new career 
after suffering devastating injuries in Fallujah in 2004 as a Member of 
3rd Battalion, 1st Marines, Frey signed up after program brochures 
indicated donations would cover expenses.
    ``I wasn't expecting that I had to pay it,'' said Frey, 32.
    He used his VA training benefits but today fears he wasted it. 
``We've got nothing to show for it.''
    Former Lance Cpl. Mike Passmore said he ``didn't know too much 
about Voc-Rehab, other than it did pay for school. It turned out it was 
$88,000. You pay that for a 4-year college degree.''
    Passmore, wounded in Iraq with 2nd Battalion, 7th Marines, is 
bitter. A VA rep told him his benefit ``is a one-time deal,'' he said.
    ``In the end, we didn't get what we were promised,'' he said. For 
instance, students didn't get a video camera package he believed they'd 
get at graduation, and several complained the union cards they received 
were only good for work as a film loader, an entry level job in the 
industry.
    Passmore took a job last April with Fox Sports in Los Angeles, but 
found he had to learn a different editing system, so he quit.
    The couple defends the course. Paixao said students got to keep a 
digital camera, an editing system and software, and donated laptops, 
but the foundation didn't give them the $5,000 Panasonic video cameras 
used in the course. Membership with the International Association of 
Theatrical Stage Employees, Lombard said, is valued and key to getting 
different types of work.
    Defending the curriculum, Lombard said some systems taught in the 
class might be different than what a student has to use on a job at a 
television station or on a film set.
    Passmore, now an apprentice at a tattoo shop, remains angry.
    ``They took advantage of Marines who were wounded,'' he said.
Lawsuit pending
    The second class began in early January, with a dozen students in a 
revamped 14-week course that will graduate students ``qualified to work 
at higher than entry-level, union-qualified jobs,'' according to a 
recent program brochure.
    ``It's much more than just the basics,'' Paixao said. Older 
students make up the newest class--it includes 2 soldiers, a Navy 
officer, a corpsman and an airman.
    Paixao said ``the mission is still pure: Train in media skills and 
help them find jobs.''
    She said it's been a tough road. The couple hears accusations that 
they're only in it for the money. Some relationships with people once 
associated with the center have soured. Their friends wonder why they 
moved from Connecticut to devote time to the center.
    ``It's taking its toll, physically and emotionally, with the 2 of 
us,'' Lombard said.
    They have transformed the course for the second class, adding an 
extra month of instruction and more hands-on training, while driving 
down the price.
    Lombard said they're talking with a university about giving 
graduates college credits. The foundation has strengthened its ties 
with the 50,000-member IATSE union, which recently reiterated its 
support to waive the $3,500 initiation fees for each graduate and help 
them find jobs, he said.
    ``We're even more impassioned now. . . . But there's a lot of 
heartache with the growing process,'' Lombard said.
    Others are feeling heartache too, including those who feel betrayed 
by Lombard and Paixao.
    Cpl. Philip Levine, 34, was a mortarman with 3rd Battalion, 5th 
Marines, and joined the foundation in early 2007 as a co-founder and 
representative for wounded warriors on its board of directors.
    ``I thought it would be a great thing, so I gave 100 percent,'' he 
said. He planned to attend the first class.
    Levine, wounded in Fallujah in 2004, recalled that donations were 
supposed to cover tuition.
    ``We're a foundation,'' he said. ``Why should a recipient have to 
use his benefits?''
    His questions led to growing ``friction'' with Lombard and Paixao 
by year's end, he said, and he was voted off the board and barred from 
taking the course. Levine sued the couple and the foundation in San 
Diego Superior Court and is seeking nearly $3,000 of unreimbursed 
expenses plus damages of $290,000 over the failed partnership. The 
trial begins in April.
    The couple declined to answer questions about the lawsuit.
    ``He's never been paid a dime, and they've never even paid his 
expenses,'' said Levine's attorney, Dick Lynn of San Diego. Levine met 
once with Commandant General James Conway and helped draw attention and 
encourage donations for the foundation, Lynn said.
    ``He worked day and night on this thing for a year.''
    Ultimately, Levine said his case isn't just about the money.
    ``I'm looking for answers. . . . I gave so much,'' he said. ``I 
trusted them.''

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 15, 2009
Mr. Peter Gaytan
Executive Director
American Legion
1608 K Street, NW
Washington, DC 20006

Dear Mr. Gaytan:

    I would like to request that The American Legion respond to the 
enclosed questions I am submitting in reference to a hearing from our 
House Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity hearing on Oversight of Vocational Rehabilitation and 
Employment Programs on April 2, 2009. Please answer the enclosed 
hearing questions by no later than Wednesday, May 27, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,
                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________

                                                    American Legion
                                                    Washington, DC.
                                                       May 27, 2009
Honorable Stephanie Herseth Sandlin, Chair
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
U.S. House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Dear Chair Herseth Sandlin:

    Thank you for allowing the American Legion to participate in the 
Subcommittee hearing on Vocational Rehabilitation and Employment (VR&E) 
Programs on April 2, 2009. I respectfully submit the following in 
response to your additional questions:

    1.  Is the VR&E funding level adequate? If not, then at what level 
should VR&E be funded?

       The American Legion believes VR&E is not funded adequately. VR&E 
needs to have an additional 200 (combined total) counselors and 
coordinators in order to function at maximum capacity. At approximately 
$100,000 per counselor/coordinator, an additional $20 million would be 
needed for these key positions.

    2.  In your testimony you state that VR&E needs relevant data 
concerning the number of veterans who are applying for benefits to 
project future workload. What data should VA be looking at, and where 
can this information be found?

       The American Legion believes that through seamless transition 
efforts between DoD and VA there could be identification of potential 
VR&E participants in order to project future workload and overall 
staffing needs. Another approach to receiving relevant data could come 
from servicemembers who attend the Transition Assistance Program (TAP) 
along with referrals from job services that feature veterans.

    3.  In your testimony you state that VA leadership must continue to 
focus on improvements in case management, vocational counseling, and 
job placement. What improvements should the VA be making to case 
management, vocational counseling and job placement?

       In relationship to case management and vocational counseling, 
many VR&E Regional Office staff reported they still do not have enough 
staff with the right skills to properly administer the program. VA 
needs to adequately train its staff in these offices so veterans can 
receive the best education and employment services possible, which will 
lead to meaningful employment and a high quality-of-life that veterans 
deserve. The American Legion recommends that participants in the VR&E 
program be identified in a career path as early as possible.
       The American Legion also recommends that veterans be trained and 
guided in the direction of some of the more difficult positions that 
need to be filled within the Federal Government. Career Fields like 
information technology, claims adjudications, and debt collection offer 
gainful employment and great opportunities for veterans who participate 
in the VR&E program. This focus would also greatly assist with the job 
placement piece of the VR&E program. Job placement through VR&E is 
vital for veterans' financial independence. Clearly, any employability 
plan that does not achieve the ultimate objective--a job--is falling 
short of actually helping those veterans seeking assistance in 
transitioning into the civilian workforce.
       While VR&E has focused more on employment, program incentives 
still haven't been updated to reflect this emphasis. VR&E program 
incentives remain directed toward education and training. Veterans who 
receive those services collect an allowance, but those who opt 
exclusively for employment services do not. The American Legion 
believes incentives toward the employment services would greatly assist 
and encourage eligible veterans to remain in vocational rehabilitation 
programs, search for employment, and assist with living expenses.
       Additionally, The American Legion recommends exploring possible 
training programs geared specifically for VR&E counselors through the 
National Veterans Training Institute (NVTI). Contracting for 
standardized or specialized training for VR&E employees could very well 
strengthen and improve overall program performance. NVTI serves as a 
valuable resource for Department of Labor, Veterans Employment and 
Training Service (DOL-VETS) employment specialists and has contributed 
to a marked improvement in DOL-VETS performance.

            Sincerely,
                                       Mark Walker, Deputy Director
                                       National Economic Commission

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 15, 2009
Colonel (ret.) Michael R. Turner
Chief, Congressional Affairs
Wounded Warrior Project
10 G Street, NE
Washington, DC 20002

Dear Colonel Turner:

    I would like to request that the Wounded Warrior Project respond to 
the enclosed questions I am submitting in reference to a hearing from 
our House Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity hearing on Oversight of Vocational Rehabilitation and 
Employment Programs on April 2, 2009. Please answer the enclosed 
hearing questions by no later than Wednesday, May 27, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,
                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________
     Wounded Warrior Project Responses to Questions For the Record
                Representative Stephanie Herseth Sandlin
            Chairwoman, Subcommittee on Economic Opportunity
                   House Veterans' Affairs Committee
             Oversight Hearing on Vocational Rehabilitation
                        and Employment Programs
                             April 2, 2009

    Question #1: How can long-term measurement mechanisms used to 
quantify program success be improved?

    According to its January, 2009 Report (GAO-09-34) the Government 
Accountability Office noted that VR&E reports an overall rehabilitation 
rate for all participants. The GAO recommended separate outcome 
measures for those seeking employment and those in the Independent 
Living track, in order to measure overall program effectiveness. 
Wounded Warrior Project agrees with the GAO recommendation because 
different program services are needed for veterans who are seeking 
employment and veterans who are learning to live independently.
    With regard to performance outcomes for the 3 VR&E employment 
tracks and the education track, Wounded Warrior Project notes the 
Department of Labor and the Department of Veterans Affairs have begun 
to collaborate more closely in improving employment services to VR&E 
participants and WWP believes this continued cooperation is also 
essential to improving employment outcomes since the DOL is VA's 
primary employment services partner.
    The 2 agencies have recently developed and begun to implement joint 
performance measures and tracking systems for VR&E participants. These 
measures include:

    Entered Employment Rate
    Employment Retention Rate
    Earnings Upon Employment

    These measures, if properly implemented, provide the minimum 
outcome measurements to judge program success. They are also consistent 
across other programs in Government.
    In addition to these primary performance outcomes, Wounded Warrior 
Project believes supplemental short-term and long-term outcome 
measurements are needed.
    The short term outcome measurements could include (but not be 
limited to):

    1.  Number of participants who complete training as planned;
    2.  Number of participants who complete a modified rehabilitation 
plan;
    3.  Number of participants who fail to complete their plan and why;
    4.  Number of participants who complete their plan and find 
employment in their planned field;
    5.  Number of participants who complete their plan but find 
employment in a different field.

    The long-term outcomes measurements should seek to quantify 
employment success at the 6-month, 1-year, and 2-year point. If 
employment assistance payments were extended to at least 6 months after 
employment for the employment tracks, a change Wounded Warrior Project 
supports, monthly online survey completion could be added as a 
requirement to remain eligible to receive those payments. Questions at 
the 6-month, 1-year, and 2-year point could include:

    1.  How long after completion of VR&E did it take for the 
participant to first become employed?
    2.  Is the participant still employed?
    3.  How many employers has the participant had since completing 
VR&E?
    4.  Is the employment in a field identified in the participant's 
VR&E rehabilitation plan?
    5.  Rate the value of the VR&E training the participant received in 
obtaining their first job after completing VR&E.
    6.  Rate the value of the VR&E training the participant received in 
obtaining their current job.
    7.  Rate the employee's current job satisfaction.
    8.  Provide the employee's current salary.

    Question #2: Do you think that the new GI Bill could render VR&E 
obsolete unless it is improved?

    This depends on the course of study sought by the enrollee and the 
location of the training. Because VR&E has no education assistance cap 
like the new GI Bill, if the enrollee is seeking education at a 
particular school not available under the new GI Bill, then VR&E is the 
better option. However, inadequate subsistence rates in VR&E are a 
significant detractor and, if left unchanged, will probably result in 
even lower enrollment in VR&E.
    The core elements of the current VR&E program make it far superior 
to the new GI Bill, however significant enhancements to the program are 
needed.
    First, subsistence levels must be raised to at least that of the 
new GI Bill. Simply put, if new subsistence rates are needed for the 
New GI Bill, they are certainly needed for VR&E participants. 
Otherwise, the perception is that VR&E participants are being penalized 
if they want to attend a higher tuition school. Subsistence should be 
paid in whole month increments when any training is received during a 
month (e.g. vocational training for partial months in the employment 
tracks). Subsistence payments should extend for 6 months after 
completion of the VR&E program to assist the veterans with their job 
search activities.
    Secondly, VR&E's unlimited education assistance should be 
protected.
    Thirdly, other expenses like child care, commuting, peer tutors, 
etc. should be considered on an as needed basis for VR&E participants.
    Fourth, counseling and tutoring--critical to VR&E participants' 
success, varies widely. It should be far more responsive and available.
    Finally, and most importantly, it should be mandatory that VA 
provide VR&E briefing for every servicemember prior to separation from 
the military. In addition, VA should also inform veterans about VR&E 
opportunities when the veteran receives his/her disability rating, and 
each time that rating changes.
    With these relatively easy to implement enhancements, VR&E can 
become the `crown jewel' of employment programs so richly deserved by 
our disabled veterans. However, without these changes, enrollment may 
very likely drop significantly.

    Question #3: In your testimony you state that VR&E counselors do 
not systematically monitor participants to document progress and 
provide program assistance. Is this due to poor management, high 
caseload or some other reasons?

    Wounded Warrior Project believes the caseload is probably the major 
factor. VR&E staff acknowledges that the current, average caseload is 
about 130 cases per counselor. We think this is too high, although the 
load should vary by track. 130 cases for a counselor monitoring the 
reemployment track may be an acceptable ratio. However, the same number 
of cases for a counselor monitoring the education track is probably 
not. Such a caseload for the IL track is absolutely too high. 
Furthermore, counseling across tracks is probably not optimum. It is 
difficult to equate the counseling skills required to support an IL 
enrollee, someone working toward a Masters degree, and someone 
attending a small-business startup program.
    Participant access to and contact with counselors will obviously 
vary by track and should reflect an overall counseling plan unique to 
each track. In the education track, counselors should have an academic 
counseling background. They also should monitor each student's academic 
progress, and they should intervene immediately when it is apparent the 
student is experiencing difficulty with their particular program. 
Employment tracks other than the education track should be supported by 
career counselors, and IL counselors clearly should be specialists in 
assisting the severely disabled.

    Question #4: You state that VR&E should pay a full month of 
subsistence for every partial month a veteran is enrolled. Can you 
elaborate on what you mean by partial month?

    Within the VR&E program, subsistence is paid whenever a participant 
is enrolled in a formal training program consistent with his or her 
rehabilitation plan. If this is a partial month, VR&E pays a prorated 
month. For example, if an enrollee in the rapid access to employment 
track attends a formal certification course which lasts 10 days, he 
will be paid subsistence only for those 10 days, not the full month. 
Three of the 4 employment tracks are generally so short that limited, 
if any, subsistence is ever paid.
    Enrollment in a track should, by itself, be the basis for awarding 
subsistence, not the duration of the actual training received within 
that track. In addition, if a veteran enters the rapid access to 
employment track and takes 2\1/2\ months to find a job, he should be 
paid subsistence for 3 full months even if no formal training is 
received. Obviously, the VR&E counselor should ensure that the enrollee 
is actively seeking employment during that entire time.
    A simplified and slightly more generous subsistence structure such 
as this for the 3 non-college tracks--tracks which are used far less 
frequently than the education track--would likely add some cost to the 
program although participant levels in these 3 tracks are significantly 
less than the education track (e.g., the recent GAO review we 
previously cited indicated that 22 percent of VR&E participants are 
currently enrolled in these 3 tracks). More importantly, this 
subsistence structure would create a very meaningful incentive for non-
college bound veterans to use the VR&E program.

    Question #5: You state in your written testimony that an increasing 
number of OEF/OIF veterans are apparently being denied entry into the 
program. Did these veterans meet the criteria and therefore should not 
have been denied entry into the program?

    Yes, the Wounded Warriors referred to in our testimony did indeed 
meet the criteria and should not have been initially denied entry into 
the program. The fact that they were later enrolled in the program 
serves as further evidence that the difficulties these OEF/OIF warriors 
had in gaining entry into the program were unwarranted. Wounded Warrior 
Project has worked on multiple occasions to remedy specific case-by 
case VR&E eligibility issues.
    While we can currently provide anecdotal instances of these issues, 
in order to best portray the realities in the field, WWP will be 
formally surveying our warriors to garner the statistical data 
necessary to establish the systemic trends we believe we are seeing. 
Upon completion of this survey we will gladly relay our findings to the 
Committee or others who request them.

    Question #6: on average, how much contact should a VR&E counselor 
have with a veteran enrollee and how much time should be spent during 
each interaction.

    Currently, Wounded Warrior Project does not have enough data to 
definitively recommend an appropriate number of contacts nor do we have 
enough information to provide an informed opinion as to the time each 
counselor should spend with each enrollee.
    WWP does believe the counselors should be track specialists and we 
recognize the average number and duration of interactions would 
generally vary by track. It is also necessary to recognize that 
counselor interaction with participants should reflect an overall 
counseling plan unique to each track.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 15, 2009
Mr. Bob Wallace
Executive Director
Veterans of Foreign Wars of the United States
200 Maryland Ave., SE
Washington, DC 20002

Dear Mr. Wallace:

    I would like to request that the Veterans of Foreign Wars of the 
United States respond to the enclosed questions I am submitting in 
reference to a hearing from our House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity hearing on Oversight of Vocational 
Rehabilitation and Employment Programs on April 2, 2009. Please answer 
the enclosed hearing questions by no later than Wednesday, May 27, 
2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,
                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________
                  JUSTIN BROWN, LEGISLATIVE ASSOCIATE
                      NATIONAL LEGISLATIVE SERVICE
             VETERANS OF FOREIGN WARS OF THE UNITED STATES
                   RESPONSE TO QUESTIONS SUBMITTED BY
                       CHAIRWOMAN HERSETH SANDLIN
                     COMMITTEE ON VETERANS' AFFAIRS
                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

     Oversight of Vocational Rehabilitation and Employment Programs
                       Submitted on May 13, 2009

    1.  What is the major complaint that you hear from veterans about 
the VR&E program?

        <bullet>  The VFW's most frequent complaint in regards to VR&E 
        comes from disabled veterans who are upset that they are 
        ineligible for the VR&E program due to its arbitrary delimiting 
        date. Many of these disabled veterans site the fact that their 
        injury did not worsen to the point of needing rehabilitation 
        until long after the delimiting date had passed.

    2.  In your testimony you state that, ``for many disabled veterans 
with dependants, VR&E education tracks are insufficient.'' Why is it 
insufficient and what can be done to improve the program?

        <bullet>  VR&E's education track is insufficient for veterans 
        with dependants because it does not provide them with the 
        necessary amount of resources to raise a family while pursuing 
        an education. Instead of utilizing education tracks, which will 
        more often provide a higher quality of life and higher rates of 
        long term rehabilitation and employment options, many veterans 
        with dependants are opting into immediate employment to address 
        immediate needs.

    3.  According to your written testimony, VFW is concerned with how 
the VR&E ``rehabilitation rate'' is reported. Is their current 
reporting method not accurately portraying the ``rehabilitation rate''?

        A. How should this be changed

        <bullet>  VR&E's rehabilitation rate might be considered 
        accurate if you are recording short-term job placement. The 
        rehabilitation does not utilize a focus that concentrates on 
        the long-term rehabilitation rate of the veteran. Many 
        veterans' injuries negatively progress over time and may 
        require further rehabilitation. The current figures fail to 
        take this into account and do not consider the long-term 
        effects of the VR&E program. By changing the concentration of 
        the VR&E's results from the short term to the entirety of a 
        veteran's employability an emphasis on long-term results and 
        rehabilitation will be prioritized and veteran's will have a 
        better rehabilitation program.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 15, 2009
The Honorable Hilda L. Solis
Secretary
U.S. Department of Labor
200 Constitution Ave., NW
Washington, DC 20210

Dear Secretary Solis:

    I would like to request that the U.S. Department of Labor respond 
to the enclosed questions I am submitting in reference to a hearing 
from our House Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity hearing on Oversight of Vocational Rehabilitation and 
Employment Programs on April 2, 2009. Please answer the enclosed 
hearing questions by no later than Wednesday, May 27, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,
                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________

                                           U.S. Department of Labor
                              Office of the Assistant Secretary for
                                  Veterans' Employment and Training
                                                    Washington, DC.
                                                      July 17, 2009
The Honorable Stephanie Herseth Sandlin
Chairwoman
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
U.S. House of Representatives
Washington, DC 20515

Dear Chairwoman Sandlin:

    Thank you for the opportunity to respond to your follow-up 
questions to the hearing at which I testified on April 2, 2009. As 
requested, I have restated the questions in their entirety and provided 
the respective answers.

    1.  Currently you have personnel at 49 regional offices and 19 
satellite offices. In your testimony you state that your standard is 
one per office. When do you expect to reach this goal and what would be 
your budgetary implications?

    Response: The outstationing of Veterans' Employment and Training 
Service (VETS) funded personnel at the Department of Veterans Affairs' 
Veterans Rehabilitation and Employment (VR&E) service locations is a 
work in progress. VR&E currently has 57 regional offices and 120 
satellite offices. We currently have personnel at 47 of the 57 VR&E 
regional offices, and are continuing our work with the VA to provide 
support to the remaining 8 regional offices. Although we only have 
personnel at 19 of the 120 satellite offices, the location of those 
personnel was determined in consultation with the VA. It was never our 
intention to have personnel at all 120 locations, but rather to provide 
our personnel to those locations identified by the VA as most in need. 
Additional reasons for not having personnel at every VR&E site are: 
staff turnover, which leaves temporary vacancies; and, in some 
instances, VR&E does not have physical space for additional personnel. 
However, we continue to work with VR&E and the State Workforce Agencies 
to accomplish the outstationing necessary to service our disabled 
veterans.

    2.  In the table you provided on page 3 you have 6,068 registered 
veterans, yet only 3,516 entered employment. What is the reason for 
this steep dropoff and what information do we have on the veterans that 
did not enter employment?

    Response: The reasons for this steep dropoff include: some return 
to school to further their education; some find jobs on their own; some 
decline our services after they register with the One-Stop Career 
Center. Although the percentage of those that actually enter employment 
has remained rather constant over several years, we continue to work to 
assist as many veterans as possible in funding gainful employment, and 
are very encouraged by the average entry wage which has ranged from 
$13.64-$16.16 from FY 2006-2008.

    Hopefully, my responses to your thoughtful questions will provide 
additional information on the work that VETS and VA, through the VR&E 
program, continue to pursue. Our collaborative efforts to implement an 
updated Memorandum of Agreement (MOA) outlining the process and 
responsibility to work together to maximize the services both agencies 
provide, will hopefully result in an increase in placements and 
employment opportunities for our disabled veterans and their 
dependents.
    Thank you for the opportunity to provide this information for the 
record.

            Sincerely,
                                                     John McWilliam
           Deputy Assistant Secretary for Operations and Management

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 15, 2009
Ms. Ruth Fanning
Director, Office of Vocational Rehabilitation and Employment
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Ms. Fanning:

    I would like to request that the U.S. Department of Veterans 
Affairs respond to the enclosed deliverables and questions for the 
record I am submitting in reference to a hearing from our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on Oversight of Vocational Rehabilitation and Employment 
Programs on April 2, 2009. Please answer the enclosed hearing questions 
by no later than Wednesday, May 27, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,
                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________
                        Questions for the Record
                The Honorable Stephanie Herseth Sandlin
                               Chairwoman
                  Subcommittee on Economic Opportunity
                  House Committee on Veterans' Affairs
            Vocational Rehabilitation and Employment Program
                             April 2, 2009

    Question 1: What is the percentage increase based on the number of 
counselors that were in your regional offices and employment 
coordinators in 2007? What was the increase in hires in 2008 and 2009?

    Response: Vocational Rehabilitation and Employment (VR&E) Service 
increased the number of counselors nationwide by 10.3 percent since 
fiscal year (FY) 2007. The number of employment coordinators has 
remained relatively constant since FY 2007.

------------------------------------------------------------------------
                                                            FYTD 2009 (4/
                                   FY 2007       FY 2008       11/09)
------------------------------------------------------------------------
Counselors                          737           802           813
------------------------------------------------------------------------
Increase from FY 2007                --             8.8%         10.3%
------------------------------------------------------------------------
Employment Counselors                88            87            89
------------------------------------------------------------------------
Increase from FY 2007                --            -1.1%        + 1.1%
------------------------------------------------------------------------


    Overall staffing level has increased as follows:

------------------------------------------------------------------------
                                   FY 2007       FY 2008       FY 2009
------------------------------------------------------------------------
VR&E Staff                        1,020         1,111         1,073
------------------------------------------------------------------------
Increase from FY 2007                --             8.9%          5.2%
------------------------------------------------------------------------


    Question 2: If we were able to find additional resources how should 
those additional resources be allocated?

    Response: VR&E Service currently operates within the allocated 
budget to deliver high quality employment and independent living 
services for servicemembers and Veterans with disabilities. We have 
forecasted new funding needs in FY 2010 to study new ways to motivate 
Veterans to enter VR&E programs and ways to improve outreach to new 
Veterans.

    Question 3: What is the placement status of the first group who 
graduated from Wounded Marine Careers Foundation, Inc?

    Response: Of the 7 individuals supported in the first Wounded 
Marine Careers Foundation (WMCF) class, one was rehabilitated based on 
his employment with a production company. He has recently been laid off 
and has an interview scheduled with another production company. Three 
individuals are in continued training programs toward rehabilitation. 
One Veteran discontinued his rehabilitation program due to worsening of 
his disability. The remaining 2 Veterans are in interrupted status 
after relocating to other parts of the country. Contact has been made 
with staff at the Veterans' new locations to ensure outreach is 
conducted to offer job placement assistance and other services as 
needed.

    Question 4: In reviewing the Performance and Accountability Report, 
Table 1 for Serious Employment Handicap (S.E.H.) Rehabilitation Rate, 
the target was 74 percent in 2007 and 75 percent in 2008 and the 
strategic target was 80 percent in 2007 and 2008, but VR&E scored a 73 
percent in 2007. Why was the target not met in 2007 and why is the 
target so low for 2007 and 2008?

    Response: The serious employment handicap (S.E.H.) rehabilitation 
rate measures the success of Veterans with the most serious employment 
handicaps in achieving their employment or independent living 
rehabilitation goals. The S.E.H. rehabilitation rate was developed to 
ensure the program's primary focus is on assisting those Veterans with 
the most significant employment handicaps. This is measured not only by 
achievement of the S.E.H. rehabilitation rate target but by comparison 
with the general rehabilitation rate target, which includes all 
Veterans served, regardless of the severity of their disabilities. In 
FY 2007, the S.E.H. rehabilitation rate for the Nation was 73 percent, 
which was 1 percentage point below the target. Assisting 73 of every 
100 seriously disabled Veterans to achieve their rehabilitation goals 
is significant. The nonsuccess portion of the rate (27 of every 100 
Veterans) includes Veterans who dropped out of the program for personal 
reasons, Veterans whose disabilities worsened, or Veterans who could 
not continue to participate for financial reasons. Some attrition is 
usual for a benefit program designed for Veterans to use as an option 
in their transition process. Therefore, the targets for both fiscal 
years are considered appropriate.

    Question 5: What more can we do to assist Veterans with serious 
employment handicaps?

    Response: The VR&E program does provide a full array of services. 
As authorized by title 38 U.S.C., the VR&E program is designed to 
ensure that the highest priority service is provided to Veterans with 
serious employment handicaps. Intensive and individually tailored 
services are provided to seriously disabled Veterans to help them 
achieve employment goals. Additional services include support of higher 
level training to help Veterans be more competitive in the labor 
market; specialized support during training, such as tutorial 
assistance or tailored testing arrangements; more frequent case 
management services at the training site; special employer incentives 
to employers who hire Veterans; and job coaching to assist Veterans 
maintain employment. Veterans with serious employment handicaps who are 
not employable due to the severity of their disabilities are eligible 
for independent living services. These services help Veterans be as 
autonomous as possible in their home and communities and include 
services such as life skills coaching to help them independently 
perform activities of daily living; assistance in establishing a 
volunteer job to increase community involvement; and help connecting 
with community supports, such as centers for independent living, 
support groups, or the Veterans Health Administration (VHA) Vet Center 
programs. Counselors also coordinate with VHA resources to address 
mental health, medication compliance, and enrollment in programs to 
improve living with a chronic illness (such as diabetes).

    Question 6: In reviewing the Performance and Accountability Report 
Table 1 for 2007, the report cites that common measures data was 
projected to be received from DOL in January 2008, but the table in the 
2008 Performance and Accountability Report states the data was to be 
received from DOL in December 2008. Have you received this data from 
DOL?

    Response: VR&E is working with the Department of Labor to obtain FY 
2008 data. The expected completion date is June 30, 2009.

    Question 7: Does VR&E have an IT challenge that we should be aware 
of?

    Response: Yes, challenges exist because we are reliant on the 
benefits delivery network (BDN) legacy system for payment of the VR&E 
subsistence allowance, eligibility determinations, and related data 
tracking. VR&E is working to transition these functions from the BDN 
legacy system into the Veterans Benefits Administration's (VBA) 
existing corporate database. This initiative includes modernization of 
work processes and development of a more robust system of reports to 
further enhance our ability to analyze trends and respond to 
stakeholder requests for information. VR&E is also engaged in the 
Department of Veterans Affairs (VA) paperless delivery of Veterans 
benefits Initiative currently being developed. This initiative is 
designed to employ enhanced technology platforms that include imaging, 
computable data, electronic workflow capabilities, rules-based 
technology, and enterprise content and correspondence management 
services to support Veteran-focused end-to-end benefits delivery.

    Question 8: Has any follow up or a survey been done as to why 
Veterans enter VR&E and then drop out before completion?

    Response: VR&E Service worked with Office of Policy and Planning 
(OP&P) to gather information about this issue through the 2007 Veterans 
employability research survey (VERS). The study results were used to 
identify barriers to retention and develop strategies to increase 
Veterans' completion of vocational rehabilitation programs. VR&E 
service is currently working with OP&P to complete a program 
evaluation, which will include further analysis of program retention 
and completion.

    Question 9: In your opinion can a Veteran with a family 
realistically complete the VR&E program with the benefits at its 
current level?

    Response: Veterans with families are enrolled in VR&E programs and 
successfully achieve career and independent-living goals; however, some 
struggle to complete VR&E programs for a number of reasons. These 
reasons are similar to the concerns faced by any individual with a 
family who pursues education toward a new career and include such 
issues as child care, balancing home responsibilities against 
educational pressures, and the necessity to maintain employment during 
training due to financial concerns. These issues are understandably 
magnified for single parents. VR&E provides supportive services during 
Veterans' rehabilitation programs to assist them in overcoming these 
barriers and completing their programs, including subsistence 
allowance; transitional employment such as work study placements, part-
time employment, or full-time employment that assists financially and 
also builds their resume; individual case-management services to assist 
them in resolving any barriers that could potentially impact completion 
of their rehabilitation programs; and special services such as short-
term loans or financial counseling, as needed.

    Question 10: VR&E will help a Veteran start a business if this is 
the route they choose to follow. Is a business plan required?

    Response: Yes, business plans are required for self-employment 
plans, and an extensive review of the viability of business plans is 
conducted. This process includes consultation with SCORE (counselors to 
America's small business) and the Small Business Administration (SBA).

    Question 10(a): If yes, then who reviews the business plan and what 
background does the reviewer have in business?

    Response: Vocational rehabilitation counselors (VRC) assist 
Veterans with the development of business plans. During this process, 
the VRC ensures that the Veteran is provided access to a professional 
business consultant, most often through the SCORE program. 
Additionally, VR&E works with SBA, small business development center 
(SBDC), Center for Veterans Enterprise (CVE), and other private small 
business consulting agencies. These resources have experience in 
working with Veterans and provide additional expertise in evaluating 
the viability of business plans and assisting developing small 
businesses.

    Question 10(b): What is the maximum amount of funding Veterans can 
get to start their own businesses?

    Response: There are no established maximums related to the startup 
of a business for the most severely disabled Veterans. If appropriate 
for a Veteran with a serious employment handicap, VR&E provides the 
funding as allowed by regulations and as necessary to support the start 
up of the business. There are statutory prohibitions on the purchase of 
land, buildings, lease or rental payments, vehicles, and the stocking 
of a farm for husbandry or a fishery. In addition, management approval 
is required for small business plans and related expenditures.

    Question 10(c): What has been the success of Veteran 
entrepreneurship?

    Response: VR&E does not have data on the success rate of Veterans 
electing to pursue a program of self-employment.

    Question 10(d): Does VA try to dissuade a Veteran from business if 
the counselor believes it is not a good idea?

    Response: VR&E counselors assist Veterans in the development of an 
individualized program of services designed to overcome the limitations 
of their employment handicaps. If it is determined that self-employment 
provides the greatest opportunity to achieve their rehabilitation 
goals, assistance is provided toward that objective.

    Question 10(e): How many times can a Veteran attempt to start a 
business with VA help?

    Response: VR&E does not limit the number of times a Veteran may 
attempt to start a business. The VRC will work with the Veteran to 
conduct a thorough analysis of the feasibility and viability of a 
subsequent self-employment program. Additionally, the VRC will help the 
Veteran to identify any concerns or barriers that may have led to the 
failure of the previous self-employment plan, including assisting the 
Veteran to determine if self-employment is a good fit.

    Question 11: On average how many times does a counselor speak or 
meet with a Veteran?

    Response: Throughout the rehabilitation process, VR&E counselors 
provide individualized one-on-one services to Veterans. This begins 
with the initial interview and meetings to complete the entitlement 
determination. Meetings continue for test administration, if needed, to 
determine aptitudes and abilities, interpretation of test results, 
vocational counseling, and rehabilitation plan development.
    Once the Veteran has entered a rehabilitation plan, the VRC meets 
with the Veteran at the rehabilitation or training site at least once a 
term or once a quarter. If the Veteran's needs dictate, the counselor 
meets more frequently with him or her, for example, counselors meet 
with Veterans at least monthly if they are having difficulty in 
training or if they are participating in the following types of 
rehabilitation plans: on-the-job training, independent living, extended 
evaluation, self-employment, or employment assistance. In addition, 
counselors speak with Veterans by phone or email on a frequent basis to 
meet emerging needs, such as the need for medical referrals.

    Question 11(a): In each encounter, approximately how much time is 
spent with the Veteran?

    Response: Although the times of meetings vary in accordance with 
individual Veteran's needs, the average face-to-face visit with a 
Veteran during the counseling process is 90 minutes. The average case-
management meeting is 45 minutes.

    Question 12: Does VR&E track the number of Veterans who drop out 
from all programs?

    Response: VR&E tracks the number of Veterans who exit or 
discontinue participation in the VR&E program without completing their 
individualized rehabilitation plans in our database system. This system 
also captures the reasons for discontinuance with designated ``reason 
codes.''

    Question 12(a): If you do, what is that number?

    Response: In FY 2008, 5,103 Veterans discontinued participation in 
their individualized rehabilitation plans.

    Question 13: From the date a Veteran applies for a program, on 
average how long does it take a Veteran to begin a program?

    Response: Veterans who applied during FY 2008 took an average of 95 
days from date of application to plan development and entrance into 
their program of rehabilitative services.

    Question 14: On average how long does it take VR&E to validate 
entitlement for a Veteran?

    Response: Currently, the time from date of application to 
entitlement determination is 49\1/2\ days.

    Question 15: What are some of the unmet needs that Veterans 
encounter when they sign up for VR&E?

    Response: Although the VR&E program, as authorized under title 38, 
is a very generous program to assist Veterans to attain and sustain 
suitable gainful employment, it does not allow for Veterans to cross 
enroll in the new Chapter 33 GI Bill program as is possible for 
Veterans using both Chapter 30 and Chapter 31. The subsistence 
allowance payable by the VR&E program is not sufficient for an enrolled 
Veteran to support his/her core living expenses during participation in 
a rehabilitation program. The VR&E program does not support subsistence 
allowance for employment only programs or for employment-related 
expenses such as interview clothing. Further, the VR&E program does not 
support additional financial needs for Veterans attending training, 
such as child or dependent care expenses.

    Question 16: In your testimony you talk about the Coming Home to 
Work program. What outcomes can you share with us about this program?

    Response: VR&E's coming home to work (CHTW) program was expanded in 
February 2008 to become VR&E's outreach and early intervention program. 
Through this program, VR&E has dedicated 13 full-time VRCs at 12 
Department of Defense (DoD) facilities and appointed a CHTW coordinator 
in each of the 57 regional offices. VR&E has increased outreach 
activities to National Guard and Reserve Members by collaborating with 
DoD to provide outreach at post deployment health reassessment events 
and Yellow Ribbon Reintegration Program events. Over 2,000 disabled 
transition assistance program briefings were conducted for almost 
38,000 Servicemembers, Veterans and dependents, resulting in over 6,000 
career counseling (Chapter 36) sessions and over 3,000 applications for 
VR&E services. Increased outreach efforts contributed to a 13-percent 
increase in applications for VR&E services in FY 2008 over the previous 
year, with continuing trends for increased Veteran and servicemember 
application and participation in FY 2009.

    Question 17: How many participants did VR&E have in 2008?

    Response: At the close of FY 2008, 97,000 Veterans were engaged in 
VR&E services in statuses ranging from applicant to job-ready, and 
11,000 were closed as rehabilitated. During FY 2008:

    <bullet>  84,646 Veterans were carried over in open statuses from 
FY 2007.
    <bullet>  71,000 Veterans applied and were found eligible for VR&E 
services. Of those applicants, 46,000 attended their first counseling 
appointment and 38,000 participated in the program to the point of an 
entitlement decision being made.
    <bullet>  35,000 Veterans were found entitled, and 27,000 elected 
to work with a rehabilitation counselor to develop and enter a 
rehabilitation plan.
    <bullet>  Of the total Veterans participating in rehabilitation 
plans, 16,000 completed rehabilitation plans during FY 2008; 11,000 
after completing rehabilitation goals, 3,500 after being discontinued 
prior to achieving rehabilitation goals, and 1,500 after achieving some 
rehabilitation gain, but not fully meeting rehabilitation goals.
    <bullet>  97,116 Veterans continued services into FY 2009.

    Question 17(a): Of that number, how many were rehabilitated?

    Response: 11,000 Veterans were rehabilitated in FY 2008.

    Question 18: In reviewing the Program Assessment Rating Tool, it 
states that VR&E helped Veterans find suitable employment. Why is it 
measured from those who exit the VR&E program instead of those who 
enter the program?

    Response: The VR&E employment rehabilitation rate is an outcome 
measure, captured after Veterans have received services and have 
achieved--or failed to achieve--their rehabilitation goals. Until 
Veterans complete services, they remain in an active status in their 
rehabilitation programs. Because VR&E's focus is on assisting Veterans 
to achieve careers, programs of services may extend for multiple years. 
It is not possible to assess success based upon services provided until 
completion of services because VR&E's outcome goals are based upon 
achievement and successful maintenance of suitable employment for a 
minimum of 60 days.

    Question 19: In rating the program's success from those who exit 
and not from those who enter, are we getting a skewed report on the 
program's success?

    Response: No, it is appropriate to rate the VR&E program's success 
based on those who exit following their participation in a 
rehabilitation program. The VR&E program is a benefit program, not a 
mandatory program. Veterans enter the program based upon their personal 
needs and choice. In FY 2008, 35 percent of Veterans who applied and 
were found eligible for services subsequently opted not to pursue 
services. Calculating those Veterans who chose not to pursue, to even 
their first scheduled VR&E appointment, into VR&E's overall success 
rate would negatively skew program data. This would inappropriately 
correlate the Veteran's choice not to use VR&E services with program 
failure. Further, once Veterans engage in VR&E services, they may be 
found not entitled for services or may elect not to enter a plan of 
rehabilitation services.
    Factoring in Veterans' decisions not to use the VR&E benefit 
program instead of assessing the success of those Veterans who were 
provided programs of rehabilitation through the VR&E program would 
provide an inaccurate and negatively skewed evaluation of VR&E 
services.

    Question 20: The VA has partnered with FAA to provide Veterans with 
new training opportunities. What other partnerships has VA formed with 
other agencies or entities?

    Response: VR&E is currently working with many organizations to 
provide services to Veterans and servicemembers that assist them to 
transition from military to civilian careers, attain and sustain 
employment following a worsening of disability conditions, and achieve 
the maximum level of independence in the community. A few of these 
partnerships include: the DoD Army Wounded Warriors Program, the DoD 
Yellow Ribbon Reintegration Program, Easter Seals, Goodwill Industries 
of America, Centers for Independent Living, VA's Prosthetics and 
Compensated Work Therapy programs, VA's Blind Services programs, the 
DOL VETS program, the National Association of State Workforce Agencies, 
Social Security Administration, Internal Revenue Service, the House of 
Representatives Wounded Warrior Program, and the Council of State 
Administrators of Vocational Rehabilitation.

                                 <all>

</pre></body></html>
